"'~ ~
( l­
'..
  -..
    :._V"ia
 +'.4'''VIC''.U'.
                           DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                        Office of Inspector General


                                                                                                          Washington, D.C. 20201




                                                                  MAY - 9 20




                    TO:	            Edwin L. Walker
                                    Deputy Assistant Secretar for Policy and Programs
                                    Administration on Aging


                    FROM:
                                       Ý'~ (rId ~
                                    S~R Wright~ "V

                                    Deputy Inspector General

                                      for Evaluation and Inspections



                    SUBJECT:	 Memorandum Report: Performance Data for the Senior Medicare Patrol
                                    Projects: April 
   2008 Performance Report, OEI-02-08-00120


                    This memorandum report presents performance data from the Senior Medicare Patrol

                    Projects. The Office oflnspector General (OIG) has collected these data since 1997. In

                    December 2005, the Administration on Aging (AoA) requested that OIG continue to collect

                    and report on performance data for the Senior Medicare Patrol Projects to support AoA's

                    efforts to evaluate and improve the performance of 
 these projects. OIG agreed to collect
                    performance data every 6 months but to report the data on an anual basis.

                    The Senior Medicare Patrol Projects recruit retired professionals to serve as educators and

                    resources to beneficiaries to detect and report fraud, waste, and abuse in the Medicare

                    program. At least one project is located in each of 
 the 50 States, as well as in the District of

                    Columbia, Puerto Rico, Guam, and the Virgin Islands. In 2007, 57 Senior Medicare Patrol

                    Projects received a total of$9.3 milion from AoA.


                    New Performance Measures
                    In 2007, AoA revised some of the performance measures to more accurately reflect the work of
                    the Senior Medicare Patrol Projects. AoA developed the following new performance measures:
                    number of active volunteers, number of simple inquiries, and number of complex issues. Active
                    volunteers are individuals who are trained to assist with teaching beneficiaries how to detect
                    fraud, waste, and abuse in Medicare and other health care programs. Simple inquiries come from
                    beneficiaries and are quickly resolved with very little research or review. Complex issues
                    involve more detailed information related to an issue or a complaint that may warant fuher
                    investigation by an investigative agency, such as the reporting of potential fraud and abuse by a
                    provider.




            OEI-02-08-00 I 20
            Performance Data for the Senior Medicare Patrol Projects: April 2008 Performance Report
 Page 2 – Edwin L. Walker


 Beginning in 2007, the Senior Medicare Patrol Projects were required to measure health care
 expenditures for which the Medicare program, the Medicaid program, a beneficiary, or other
 entity (e.g., secondary health insurer, pharmacy) was relieved of responsibility for payment as a
 result of the projects. This performance measure is referred to as cost avoidance. For example,
 if a beneficiary discovers charges for services that he or she did not receive and the project, on
 behalf of the beneficiary, receives a revised billing statement from the provider, the project can
 report this as cost avoidance.

 Methodology
 This review is based on data reported by the Senior Medicare Patrol Projects. We reviewed
 documentation for actual funds recovered to the Medicare program, the Medicaid program,
 beneficiaries, and others attributable to the projects. We did not independently verify the other
 performance measures.

 Performance Measure Results for 2007
 In 2007, the 57 projects trained a total of 10,338 active volunteers. These volunteers educated
 beneficiaries in 6,587 group education sessions and held 131,359 one-on-one counseling
 sessions. In addition, the projects conducted 13,784 media events and 8,417 community
 education events. As a result of these training sessions and events, the projects received
 69,808 simple inquiries. They also received 17,658 complex issues, of which 4,004 were
 referred for further action. Actual Medicare funds recovered attributable to the projects were
 $302,318 and actual savings to the beneficiaries attributable to the projects were $140,219.
 Additionally, cost avoidance on behalf of the Medicare program, the Medicaid program,
 beneficiaries, and others totaled $7,448,327. In particular, one project assisted with uncovering a
 case of fraudulent billing of medical services that were never provided. As a result of this case,
 13 providers had their provider identification numbers revoked, resulting in projected savings for
 Medicare of $7,367,462.

 Performance Measure Results Since 1997
 Since the inception of the program 11 years ago, a total of 72 projects (15 of which closed as of
 December 2006) reported educating beneficiaries in 60,622 group education sessions and
 983,738 one-on-one sessions. In addition, the projects reported conducting 172,492 media
 events and 57,405 community education events. Actual Medicare funds recovered attributable to
 the projects were $4,500,331. Savings to Medicaid, beneficiaries, and other payers were
 approximately $101 million. Most of the $101 million in savings was the result of one project’s
 involvement in adjustments to Medicaid claims for individuals entitled to both Medicaid and
 Medicare.




OEI-02-08-00120
Performance Data for the Senior Medicare Patrol Projects: April 2008 Performance Report
 Page 3 – Edwin L. Walker


 Tracking Systems
 The Centers for Medicare & Medicaid Services (CMS) contractors continue to provide the
 Senior Medicare Patrol Projects with Harkin Grantee Tracking System reports (referred to as
 tracking reports) that document actual Medicare funds recovered attributable to the projects. In
 2007, 16 of the 57 projects submitted at least one tracking report. Ten of the tracking reports
 documented actual recovered funds to the Medicare program. Six projects submitted other forms
 of documentation of actual Medicare funds recovered.

 In addition, AoA developed a Web-based system named The Seniors Medicare Assistance and
 Reporting Tool for Fraud and Complaint Tracking System (SMART FACTS). The Senior
 Medicare Patrol Projects can use SMART FACTS to track and report activities and complaints
 and to refer cases directly to an investigative agency.

 Summary
 We continue to emphasize that the number of beneficiaries who have learned from the Senior
 Medicare Patrol Projects to detect fraud, waste, and abuse, and who subsequently call the OIG
 fraud hotline or other contacts, cannot be tracked. Therefore, the projects may not be receiving
 full credit for savings attributable to their work. In addition, the projects are unable to track
 substantial savings derived from a sentinel effect whereby fraud and errors are reduced in light of
 Medicare beneficiaries’ scrutiny of their bills.

 As agreed with AoA, we will continue to monitor the projects and will provide you with
 summary reports of performance data on an annual basis. If you or your staff have any questions
 or require additional information, please contact me at (202) 619-0480 or Jodi Nudelman,
 Regional Inspector General for the Office of Evaluation and Inspections in New York, at
 (212) 264-2779. Please refer to report number OEI-02-08-00120 in all correspondence.

 ATTACHMENTS:
 Appendix A - Summary of Performance for All Projects Since 1997
 Appendix B - Summary of Performance for All Projects for 2007
 Appendix C - Projects’ Results for Each Performance Measure for 2007
 Appendix D - Individual Project Results for 2007
 Appendix E - Performance Measures Definitions




OEI-02-08-00120
Performance Data for the Senior Medicare Patrol Projects: April 2008 Performance Report
  Senior Medicare Patrol Projects’ Performance Measure Results




                                                                                            

List of Appendixes

Appendix A: Summary of Performance for All Projects Since 1997………………………….………5




                                                                                        

Appendix B: Summary of Performance for All Projects for 2007………………………….……........7




                                                                                        

Appendix C: Projects’ Results for Each Performance Measure for 2007……………...……………...9


Appendix D: Individual Project Results for 2007………………………………………………..…. 31




                                                                                        

Appendix E: Performance Measures Definitions…………………………………………………….89

   Δ       A P P E N D I X               ~       A




                         Summary of Performance for All Projects Since 1997
The following table provides overall performance for all 72 projects that have operated since 1997.




                                                                                                      

Not applicable or NA indicates that data were not collected for this performance measure.




                                                                                            

Totals may not add up because of rounding.


                                             





                                                                                                          5
A P P E N D     I X      ~      A




                                    

                                Summary of Performance for All Projects Since 1997
                                                                                                1997–2006         2007    Total Since 1997
                                            OUTPUT MEASURES
1          Total number of active volunteers                                                          NA        10,338             10,338
2          Total number of volunteer training hours                                                   NA       196,792            196,792
3          Total number of volunteer work hours                                                       NA       308,563            308,563
4          Number of media outreach events                                                        158,708       13,784            172,492
5          Number of community outreach education events conducted                                 48,988        8,417             57,405
6          Estimated number of people reached by community education events                     18,180,128    2,654,418        20,834,546
7          Number of group education sessions for beneficiaries                                    54,035        6,587             60,622
8          Number of beneficiaries who attended group education sessions                         2,035,722     238,539          2,274,261
9          Number of one-on-one counseling sessions held with or on behalf of a beneficiary        852,379      131,359           983,738
10         Total number of simple inquiries received                                                    NA       69,808            69,808
11         Total number of simple inquiries resolved                                                    NA       60,738            60,738
12         Number of complex issues received                                                            NA       17,658            17,658
13A        Number of complex issues referred for further action                                         NA        4,004             4,004
13B        Total dollar amount referred for further action                                              NA   $1,517,345        $1,517,345
14         Number of complex issues resolved                                                            NA        5,225             5,225
15         Number of complex issues pending further action                                              NA        3,430             3,430
16         Cost avoidance on behalf of Medicare, Medicaid, beneficiary or other                         NA   $7,448,327        $7,448,327
17A        Actual Medicare funds recovered attributable to the projects                         $4,198,013     $302,318        $4,500,331
17B        Actual Medicaid funds recovered attributable to the projects                           $545,801           $0          $545,801
17C        Actual savings to beneficiaries attributable to the projects                         $2,992,776     $140,219        $3,132,995
           Other savings attributable to the projects (e.g., Supplemental Insurance, Social
17D        Security)                                                                           $97,466,494     $11,531        $97,478,025
17B-17D    Total savings to Medicaid, beneficiaries, and other payers                         $101,005,071    $151,751       $101,156,822
17A –17D   Total savings attributable to the projects                                         $105,203,084    $454,068       $105,657,152
   Δ          A P P E N D I X                ~    B


                            Summary of Performance for All Projects for 2007

The following table provides data for the 57 Senior Medicare Patrol Projects that operated in 2007. The table provides the
performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.




                                                                                                                             7
A P P E N D         I X      ~      B




                                        

                                        Summary of Performance for All Projects for 2007
                                                                                                  January - June   July - December   Total for 2007*
                                             OUTPUT MEASURES
1              Total number of active volunteers                                                          6,068             4,270           10,338
2              Total number of volunteer training hours                                                  38,490           158,302          196,792
3              Total number of volunteer work hours                                                     146,537           162,025          308,563
4              Number of media outreach events                                                            6,121             7,663           13,784
5              Number of community outreach education events conducted                                     5,146             3,271           8,417
6              Estimated number of people reached by community education events                        1,163,320         1,491,098       2,654,418
7              Number of group education sessions for beneficiaries                                        2,915             3,672           6,587
8              Number of beneficiaries who attended group education sessions                              94,015          144,524          238,539
9              Number of one-on-one counseling sessions held with or on behalf of a beneficiary           57,653           73,706          131,359
10             Total number of simple inquiries received                                                  41,252           28,556           69,808
11             Total number of simple inquiries resolved                                                  34,079           26,659           60,738
12             Number of complex issues received                                                          14,057            3,601           17,658
13A            Number of complex issues referred for further action                                        3,128              876            4,004
13B            Total dollar amount referred for further action                                          $676,618         $840,727       $1,517,345
14             Number of complex issues resolved                                                           2,784            2,441            5,225
15             Number of complex issues pending further action                                             2,727              703            3,430
16             Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                  $7,411,707          $36,620       $7,448,327
17A            Actual Medicare funds recovered attributable to the projects                             $258,101          $44,217         $302,318
17B            Actual Medicaid funds recovered attributable to the projects                                   $0               $0               $0
17C            Actual savings to beneficiaries attributable to the projects                            $123,533           $16,686        $140,219

               Other savings attributable to the projects (e.g., Supplemental Insurance, Social
17D            Security)                                                                                 $7,009             $4,522         $11,531
17A –17D       Total savings attributable to the projects                                              $388,644           $65,425         $454,068
*Totals may not add because of rounding
   Δ       A P P E N D I X               ~       C



                      Projects’ Results for Each Performance Measure for 2007
The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects operating




                                                                                                                                     

in 2007. Each table provides the performance measure results for the two 6-month reporting periods.




                                                                                                     

Not applicable or NA indicates that data were not collected for this performance measure.




                                                                                            

Totals may not add up because of rounding.


                                             





                                                                                                                              9
A P P E N D       I X         ~   C




                                      

                                          PERFORMANCE MEASURE 1: Total Number of Active Volunteers
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                   160            92              252   Montana                   83            73              156
Alaska                                     78            53              131   Nebraska                  85           159              244
Arizona                                    31            41               72   Nevada                     1             2                3
Arkansas                                   94            50              144   New Hampshire             64            56              120
California                                526           149              675   New Jersey                34            17               51
Colorado                                  122            76              198   New Mexico               400           420              820
Connecticut                               389             8              397   New York                 210           230              440
Delaware                                   18            19               37   North Carolina            14            12               26
District of Columbia – AARP                35            35               70   North Dakota              47            33               80
District of Columbia – FH                  12            15               27   Ohio                      17            36               53
Florida                                    53            23               76   Oklahoma                 345             1              346
Georgia – AAA                              30            26               56   Oregon                   170           145              315
Georgia – Cares                            76            85              161   Pennsylvania              64            48              112
Guam                                       11            11               22   Puerto Rico               12            12               24
Hawaii                                    103            96              199   Rhode Island              58           114              172
Idaho                                      85           105              190   South Carolina            48            20               68
Illinois                                   36             8               44   South Dakota              85           108              193
Indiana                                    57            30               87   Tennessee                 14            30               44
Iowa                                       38            74              112   Texas – BBBEF             47             5               52
Kansas                                     25            40               65   Texas – NHCOA            160           179              339
Kentucky                                  207           174              381   Utah                     102           158              260
Louisiana                                   7            12               19   Vermont                   12            12               24
Maine                                      50            23               73   Virginia                  79            36              115
Maryland                                   92           112              204   Virgin Islands            10            46               56
Massachusetts                             450           420              870   Washington               373           284              657
Michigan                                   45            27               72   West Virginia             64            65              129
Minnesota                                 403            27              430   Wisconsin                 25            34               59
Mississippi                                15             5               20   Wyoming                   94            77              171
Missouri                                  103            22              125
A P P E N D       I X         ~   C




                                      

                                      PERFORMANCE MEASURE 2: Total Number of Volunteer Training Hours
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                   649         3,369            4,018   Montana                   56           226              282
Alaska                                      4             4                8   Nebraska                 880         1,569            2,449
Arizona                                    82           162              244   Nevada                     0             0                0
Arkansas                                    0           139              139   New Hampshire             46           170              216
California                                670           206              876   New Jersey                22            22               44
Colorado                                  383           770            1,153   New Mexico             4,800         3,360            8,160
Connecticut                               976             0              976   New York                  11            17               28
Delaware                                  200           164              364   North Carolina            89            58              147
District of Columbia – AARP                 8            53               61   North Dakota              47            34               81
District of Columbia – FH                  22            67               89   Ohio                      19           189              208
Florida                                    19            20               39   Oklahoma                   0             0                0
Georgia – AAA                               8           192              200   Oregon                 1,190           616            1,806
Georgia – Cares                           186            NA              186   Pennsylvania              81           111              192
Guam                                        4           280              284   Puerto Rico            5,760           132            5,892
Hawaii                                    379             0              379   Rhode Island              54         1,304            1,358
Idaho                                     324           454              778   South Carolina           175             0              175
Illinois                                  300             3              303   South Dakota               0         2,046            2,046
Indiana                                     3             3                6   Tennessee                 29           160              189
Iowa                                      209            36              245   Texas – BBBEF              0             0                0
Kansas                                     33           637              670   Texas – NHCOA            818      126,910           127,728
Kentucky                                  174           277              451   Utah                      NA           270              270
Louisiana                                  27            45               72   Vermont                  114            44              158
Maine                                      30           180              210   Virginia                  58             0               58
Maryland                                1,044         4,898            5,942   Virgin Islands             8            20               28
Massachusetts                          10,500         1,750           12,250   Washington             3,380         2,641            6,021
Michigan                                1,048         1,534            2,582   West Virginia             65            42              107
Minnesota                               2,526            77            2,603   Wisconsin                380            40              420
Mississippi                                64            15               79   Wyoming                  368         2,904            3,272
Missouri                                  168            83              251
A P P E N D       I X         ~   C




                                      

                                      PERFORMANCE MEASURE 3: Total Number of Volunteer Work Hours
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                     8         5,847            5,855   Montana                  423           139              562
Alaska                                  1,560         1,060            2,620   Nebraska               2,360         1,265            3,625
Arizona                                 5,675           407            6,082   Nevada                     0             4                4
Arkansas                                  723           517            1,240   New Hampshire          3,327         2,193            5,520
California                                510           830            1,340   New Jersey                82            47              129
Colorado                                    0            NA                0   New Mexico             9,600         4,320           13,920
Connecticut                             1,445         1,466            2,911   New York                   0             0                0
Delaware                                  337           486              823   North Carolina           960           890            1,850
District of Columbia – AARP                30            36               66   North Dakota              19            56               75
District of Columbia – FH                 135           111              246   Ohio                      98           102              200
Florida                                   152           331              483   Oklahoma                   0             3                3
Georgia – AAA                           3,938           115            4,053   Oregon                 4,080         1,858            5,938
Georgia – Cares                           135            NA              135   Pennsylvania             250           640              890
Guam                                      124           805              929   Puerto Rico           12,960           216           13,176
Hawaii                                     61            11               72   Rhode Island           8,524           817            9,341
Idaho                                     289         1,178            1,467   South Carolina           402           768            1,170
Illinois                                    0            80               80   South Dakota           7,950         2,859           10,809
Indiana                                   731           361            1,092   Tennessee                157           404              561
Iowa                                    1,474         1,555            3,029   Texas – BBBEF             30            15               45
Kansas                                      0            59               59   Texas – NHCOA         16,723         1,390           18,113
Kentucky                                1,479         2,036            3,515   Utah                      10         1,218            1,228
Louisiana                                  58            76              134   Vermont                  371           131              502
Maine                                      NA         5,999            5,999   Virginia                 552           108              660
Maryland                                6,190         5,036           11,226   Virgin Islands            20            94              114
Massachusetts                           1,271         4,320            5,591   Washington            25,974        27,803           53,777
Michigan                                   55           130              185   West Virginia            789           677            1,466
Minnesota                              18,289           180           18,469   Wisconsin              4,411           380            4,791
Mississippi                             1,014         1,025            2,039   Wyoming                  467        79,314           79,781
Missouri                                  317           258              575
A P P E N D       I X         ~   C




                                      

                                          PERFORMANCE MEASURE 4: Number of Media Outreach Activities
                                  Jan. – June    July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    40            120              160   Montana                  194            41              235
Alaska                                      1              5                6   Nebraska                   6             8               14
Arizona                                     9              4               13   Nevada                     1             6                7
Arkansas                                   20             36               56   New Hampshire             28            78              106
California                                  9             23               32   New Jersey                22             4               26
Colorado                                    2              2                4   New Mexico                 9             3               12
Connecticut                                18             15               33   New York                  13             8               21
Delaware                                  500             15              515   North Carolina            40            66              106
District of Columbia – AARP                 2              3                5   North Dakota               3            16               19
District of Columbia – FH                   2              1                3   Ohio                       1            69               70
Florida                                     5              8               13   Oklahoma                  43         1,362            1,405
Georgia – AAA                               8             11               19   Oregon                    55            70              125
Georgia – Cares                           156            165              321   Pennsylvania               5             7               12
Guam                                        4            116              120   Puerto Rico                6             1                7
Hawaii                                      1              0                1   Rhode Island              12             8               20
Idaho                                       3              0                3   South Carolina            44            25               69
Illinois                                   27             28               55   South Dakota               4             4                8
Indiana                                    32          2,507            2,539   Tennessee                 16            18               34
Iowa                                       82             54              136   Texas – BBBEF              2            12               14
Kansas                                     16             47               63   Texas – NHCOA             25            28               53
Kentucky                                  103            156              259   Utah                       9            14               23
Louisiana                                 386             31              417   Vermont                    0            31               31
Maine                                     119              9              128   Virginia               3,374           258            3,632
Maryland                                   73              6               79   Virgin Islands            76           125              201
Massachusetts                             182             21              203   Washington               106           126              232
Michigan                                    6             26               32   West Virginia             96         1,271            1,367
Minnesota                                   2              4                6   Wisconsin                101            25              126
Mississippi                                 9             10               19   Wyoming                    3           550              553
Missouri                                   10              6               16
A P P E N D       I X         ~   C




                                      

                      PERFORMANCE MEASURE 5: Number of Community Outreach Education Events Conducted
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                   334            99              433   Montana                   83            11               94
Alaska                                      8             3               11   Nebraska                  37            28               65
Arizona                                   103            74              177   Nevada                     6            22               28
Arkansas                                   30            25               55   New Hampshire             98           171              269
California                                 95            50              145   New Jersey                23            31               54
Colorado                                   34            13               47   New Mexico                12            18               30
Connecticut                               227            39              266   New York                  14            15               29
Delaware                                   70            31              101   North Carolina           100           102              202
District of Columbia – AARP                14             2               16   North Dakota               5             8               13
District of Columbia – FH                   5             4                9   Ohio                       3            14               17
Florida                                    81            91              172   Oklahoma                  22            17               39
Georgia – AAA                              24            12               36   Oregon                    79           127              206
Georgia – Cares                           185           367              552   Pennsylvania              23            41               64
Guam                                        7            12               19   Puerto Rico               97            74              171
Hawaii                                     12             8               20   Rhode Island              50            46               96
Idaho                                      25            24               49   South Carolina           167            45              212
Illinois                                  143           136              279   South Dakota               9             6               15
Indiana                                    98            71              169   Tennessee                123           146              269
Iowa                                       52           209              261   Texas – BBBEF             13            17               30
Kansas                                     21             9               30   Texas – NHCOA            200           189              389
Kentucky                                   44            94              138   Utah                   1,446            44            1,490
Louisiana                                  14            11               25   Vermont                    6             5               11
Maine                                      55            23               78   Virginia                 189            52              241
Maryland                                   26           124              150   Virgin Islands             2            20               22
Massachusetts                              94           181              275   Washington               205           131              336
Michigan                                   39            28               67   West Virginia             37            25               62
Minnesota                                 152             8              160   Wisconsin                 39            50               89
Mississippi                                28            11               39   Wyoming                   12            20               32
Missouri                                   26            37               63
A P P E N D        I X      ~    C




                                     

          PERFORMANCE MEASURE 6: Estimated Number of People Reached By Community Outreach Education Events
                                Jan. – June    July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                               5,191       129,748           134,939   Montana                2,040           604            2,644
Alaska                             663,000        670,000        1,333,000    Nebraska               6,863         2,687            9,550
Arizona                               4,103          3,867            7,970   Nevada                   745         2,160            2,905
Arkansas                              1,838          2,812            4,650   New Hampshire          2,342        10,450           12,792
California                           10,299         14,093           24,392   New Jersey             2,756         2,920            5,676
Colorado                              5,195            469            5,664   New Mexico             4,156        34,923           39,079
Connecticut                           9,551         53,442           62,993   New York              15,054         6,761           21,815
Delaware                              3,690          1,155            4,845   North Carolina        19,150        15,108           34,258
District of Columbia –
AARP                                   1,253          490            1,743    North Dakota            922         1,613            2,535
District of Columbia – FH            103,150      153,000          256,150    Ohio                    817           696            1,513
Florida                               12,537        8,325           20,862    Oklahoma              7,353         2,106            9,459
Georgia – AAA                          3,462          636            4,098    Oregon                2,316        13,904           16,220
Georgia – Cares                        8,716       36,779           45,495    Pennsylvania          1,925         4,793            6,718
Guam                                   1,650        2,075            3,725    Puerto Rico          10,593         9,051           19,644
Hawaii                                 7,000       25,650           32,650    Rhode Island          2,040        58,123           60,163
Idaho                                  2,480        1,584            4,064    South Carolina       23,360         8,808           32,168
Illinois                               8,860       22,623           31,483    South Dakota            651           652            1,303
Indiana                               21,835       18,885           40,720    Tennessee            60,866        14,139           75,005
Iowa                                   9,648       20,729           30,377    Texas – BBBEF         1,651         3,002            4,653
Kansas                                 3,059        2,136            5,195    Texas – NHCOA         9,720         9,475           19,195
Kentucky                               3,016       11,477           14,493    Utah                  4,120         7,999           12,119
Louisiana                                366        2,615            2,981    Vermont                 199           246              445
Maine                                  3,063        4,559            7,622    Virginia              8,823         4,850           13,673
Maryland                               9,632       29,584           39,216    Virgin Islands          500         1,500            2,000
Massachusetts                          8,301        5,000           13,301    Washington           22,857         4,810           27,667
Michigan                              19,067       20,964           40,031    West Virginia         9,042        16,741           25,783
Minnesota                              6,896        1,551            8,447    Wisconsin             2,149         5,603            7,752
Mississippi                            2,393        1,115            3,508    Wyoming                 237           250              487
Missouri                                 822        1,761            2,583
A P P E N D       I X         ~   C




                                      

                          PERFORMANCE MEASURE 7: Number of Group Education Sessions for Beneficiaries
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    76           174              250   Montana                   49            83              132
Alaska                                      1             1                2   Nebraska                 109            82              191
Arizona                                     1            74               75   Nevada                     6            10               16
Arkansas                                   26            26               52   New Hampshire              6            32               38
California                                143           290              433   New Jersey                55            82              137
Colorado                                   70            39              109   New Mexico               127           131              258
Connecticut                                60            13               73   New York                 105            78              183
Delaware                                   35            83              118   North Carolina            42            85              127
District of Columbia – AARP                14             9               23   North Dakota              35            92              127
District of Columbia – FH                   2             1                3   Ohio - PSI                22            18               40
Florida                                    52            72              124   Oklahoma                  13             2               15
Georgia – AAA                             110            68              178   Oregon - SMP              11           102              113
Georgia – Cares                            44           313              357   Pennsylvania              30            99              129
Guam                                        7            28               35   Puerto Rico               45            11               56
Hawaii                                     18             5               23   Rhode Island              26            23               49
Idaho                                      18            17               35   South Carolina           167            60              227
Illinois                                   57            47              104   South Dakota               5             6               11
Indiana                                    64            43              107   Tennessee                 48            72              120
Iowa                                      263           206              469   Texas – BBBEF             31            38               69
Kansas                                     12             5               17   Texas – NHCOA            166           237              403
Kentucky                                   61            78              139   Utah                      55            45              100
Louisiana                                  23            21               44   Vermont                   17            11               28
Maine                                      35            85              120   Virginia                  56            80              136
Maryland                                  129            52              181   Virgin Islands            17            20               37
Massachusetts                               0            82               82   Washington                58            49              107
Michigan                                   29            37               66   West Virginia             18            22               40
Minnesota                                 132           150              282   Wisconsin                 44            20               64
Mississippi                                18            12               30   Wyoming                    0            37               37
Missouri                                   52            14               66
A P P E N D       I X         ~   C




                                      

                   PERFORMANCE MEASURE 8: Number of Beneficiaries Who Attended Group Education Sessions
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                 2,222         6,409            8,631   Montana                1,634         1,881            3,515
Alaska                                     14            25               39   Nebraska               2,766         2,657            5,423
Arizona                                   166         3,867            4,033   Nevada                   140           229              369
Arkansas                                  315           436              751   New Hampshire            333         1,431            1,764
California                              3,984         8,854           12,838   New Jersey             2,289         2,078            4,367
Colorado                                1,591           890            2,481   New Mexico             1,533         2,571            4,104
Connecticut                             1,237         1,365            2,602   New York               3,468         3,013            6,481
Delaware                                  595         1,220            1,815   North Carolina        13,546         8,761           22,307
District of Columbia – AARP             1,253           189            1,442   North Dakota             743         1,967            2,710
District of Columbia – FH                  78            12               90   Ohio                     474           455              929
Florida                                 4,848         2,874            7,722   Oklahoma                 518            76              594
Georgia – AAA                           3,553         2,473            6,026   Oregon                   130         2,992            3,122
Georgia – Cares                         1,919        41,908           43,827   Pennsylvania             771         3,238            4,009
Guam                                       68           693              761   Puerto Rico              937           257            1,194
Hawaii                                    350           400              750   Rhode Island             910           740            1,650
Idaho                                     454           500              954   South Carolina         1,192         2,431            3,623
Illinois                                1,399         1,905            3,304   South Dakota             163           389              552
Indiana                                 1,997         1,445            3,442   Tennessee              1,527         1,560            3,087
Iowa                                    7,221         5,283           12,504   Texas – BBBEF          1,206         1,979            3,185
Kansas                                    506           186              692   Texas – NHCOA          7,400         8,047           15,447
Kentucky                                1,325         1,595            2,920   Utah                   3,500           976            4,476
Louisiana                                 411           445              856   Vermont                  305           291              596
Maine                                     490         1,221            1,711   Virginia                 508         2,470            2,978
Maryland                                4,942         1,562            6,504   Virgin Islands           160           525              685
Massachusetts                               0             0                0   Washington                NA           859              859
Michigan                                  987         1,754            2,741   West Virginia            875         1,173            2,048
Minnesota                               2,717         1,653            4,370   Wisconsin              1,154           574            1,728
Mississippi                               693           471            1,164   Wyoming                    0         1,038            1,038
Missouri                                  498           231              729
A P P E N D       I X         ~   C




                                      

        PERFORMANCE MEASURE 9: Number of One-on-One Counseling Sessions Held With or on Behalf of a Beneficiary
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                   519            87              606   Montana                  436           157              593
Alaska                                      2             1                3   Nebraska                  30             9               39
Arizona                                   240           297              537   Nevada                     2            99              101
Arkansas                                  181           125              306   New Hampshire            841         3,566            4,407
California                                 70             0               70   New Jersey                 8            27               35
Colorado                                    0           154              154   New Mexico            20,066        16,787           36,853
Connecticut                                46             1               47   New York                   0             0                0
Delaware                                  156           196              352   North Carolina            67           278              345
District of Columbia – AARP                 0             0                0   North Dakota              33            13               46
District of Columbia – FH                   3             3                6   Ohio                       0             5                5
Florida                                    25             5               30   Oklahoma                   4             0                4
Georgia – AAA                             459           161              620   Oregon                 4,240         3,961            8,201
Georgia – Cares                           514           278              792   Pennsylvania             225           244              469
Guam                                      127           338              465   Puerto Rico                0             3                3
Hawaii                                      0             0                0   Rhode Island           2,380           197            2,577
Idaho                                      36             0               36   South Carolina           731           644            1,375
Illinois                                  134           179              313   South Dakota               0             0                0
Indiana                                     0             3                3   Tennessee                227            79              306
Iowa                                       60            97              157   Texas – BBBEF             20             5               25
Kansas                                     17             1               18   Texas – NHCOA          4,352         6,131           10,483
Kentucky                                1,747         1,675            3,422   Utah                   1,365            23            1,388
Louisiana                                   9            17               26   Vermont                  357             0              357
Maine                                     238           229              467   Virginia                 349            23              372
Maryland                                2,239           152            2,391   Virgin Islands            20            25               45
Massachusetts                             300        23,396           23,696   Washington            10,470        10,316           20,786
Michigan                                   74            23               97   West Virginia             40           101              141
Minnesota                                  74            74              148   Wisconsin                 13            16               29
Mississippi                             2,393           724            3,117   Wyoming                  907         2,609            3,516
Missouri                                  807           172              979
A P P E N D       I X         ~   C




                                      

                                  PERFORMANCE MEASURE 10: Total Number of Simple Inquiries Received
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    49         1,014            1,063   Montana                    1             5                6
Alaska                                      0             0                0   Nebraska                 205            47              252
Arizona                                    34           297              331   Nevada                     9            66               75
Arkansas                                  165           125              290   New Hampshire              0           793              793
California                                 14            40               54   New Jersey               174           101              275
Colorado                                    1             0                1   New Mexico            20,066         4,663           24,729
Connecticut                                18            19               37   New York                  31            24               55
Delaware                                   86            67              153   North Carolina            82           310              392
District of Columbia – AARP                 8             9               17   North Dakota              34           114              148
District of Columbia – FH                  19             4               23   Ohio                      74            83              157
Florida                                   114            39              153   Oklahoma                  10            33               43
Georgia – AAA                               5            54               59   Oregon                   858             7              865
Georgia – Cares                           711         1,440            2,151   Pennsylvania               0             5                5
Guam                                       88           199              287   Puerto Rico                0           237              237
Hawaii                                     25             2               27   Rhode Island           3,206           811            4,017
Idaho                                     398           448              846   South Carolina             0           200              200
Illinois                                  534           160              694   South Dakota             137           196              333
Indiana                                    10           855              865   Tennessee                336           193              529
Iowa                                        8            57               65   Texas – BBBEF             81            93              174
Kansas                                     30            35               65   Texas – NHCOA         10,602        11,239           21,841
Kentucky                                  355           892            1,247   Utah                      NA            35               35
Louisiana                                  11            36               47   Vermont                   11             2               13
Maine                                       0           191              191   Virginia                  94            60              154
Maryland                                  110           218              328   Virgin Islands             0             2                2
Massachusetts                             300            13              313   Washington             1,783         1,994            3,777
Michigan                                   41            84              125   West Virginia            108            83              191
Minnesota                                  16            50               66   Wisconsin                104           198              302
Mississippi                                36             0               36   Wyoming                   14            25               39
Missouri                                   46           589              635
A P P E N D       I X         ~   C




                                      

                                  PERFORMANCE MEASURE 11: Total Number of Simple Inquiries Resolved
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    49         1,011            1,060   Montana                    1             5                6
Alaska                                      0             0                0   Nebraska                 205            47              252
Arizona                                    34           100              134   Nevada                     8            64               72
Arkansas                                  154           120              274   New Hampshire              0           793              793
California                                  5            29               34   New Jersey               168            99              267
Colorado                                    1             0                1   New Mexico            15,499         4,567           20,066
Connecticut                                16            18               34   New York                  30            24               54
Delaware                                   86            65              151   North Carolina            82           310              392
District of Columbia – AARP                 8             9               17   North Dakota              34           114              148
District of Columbia – FH                  19             4               23   Ohio                      62            77              139
Florida                                    99            28              127   Oklahoma                   8            32               40
Georgia – AAA                               5            54               59   Oregon                   858             7              865
Georgia – Cares                           698         1,382            2,080   Pennsylvania               0             5                5
Guam                                       88           199              287   Puerto Rico                0           231              231
Hawaii                                     25             0               25   Rhode Island           2,725           640            3,365
Idaho                                     364           429              793   South Carolina             0           200              200
Illinois                                  531           160              691   South Dakota             137           196              333
Indiana                                     9           855              864   Tennessee                332           188              520
Iowa                                        8            57               65   Texas – BBBEF             79            93              172
Kansas                                     11            23               34   Texas – NHCOA          9,011        10,002           19,013
Kentucky                                    0           892              892   Utah                      NA            32               32
Louisiana                                  10            32               42   Vermont                    3             0                3
Maine                                       0           189              189   Virginia                  93            60              153
Maryland                                  110           202              312   Virgin Islands             0             2                2
Massachusetts                             300            13              313   Washington             1,783         1,994            3,777
Michigan                                   41            84              125   West Virginia            108            83              191
Minnesota                                  16            50               66   Wisconsin                 93           189              282
Mississippi                                13             0               13   Wyoming                   14            25               39
Missouri                                   46           575              621
A P P E N D       I X         ~   C




                                      

                                      PERFORMANCE MEASURE 12: Number of Complex Issues Received
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    24            20               44   Montana                  108            12              120
Alaska                                      2             0                2   Nebraska                  45            16               61
Arizona                                    23            19               42   Nevada                     0            19               19
Arkansas                                   40            60              100   New Hampshire              8           773              781
California                                 73            34              107   New Jersey                22            11               33
Colorado                                   24            11               35   New Mexico                78            96              174
Connecticut                                 6            15               21   New York                  70            64              134
Delaware                                    4             2                6   North Carolina             0             0                0
District of Columbia – AARP                 0             1                1   North Dakota               1             3                4
District of Columbia – FH                   1             1                2   Ohio                       5            31               36
Florida                                    58           124              182   Oklahoma                   3             4                7
Georgia – AAA                             110            54              164   Oregon - SMP               7             2                9
Georgia – Cares                            65            96              161   Pennsylvania               6             6               12
Guam                                        3             4                7   Puerto Rico                6             3                9
Hawaii                                      0             0                0   Rhode Island              53             4               57
Idaho                                      36            19               55   South Carolina            22            73               95
Illinois                                    7             3               10   South Dakota               6             4               10
Indiana                                     7             2                9   Tennessee                 19             9               28
Iowa                                       39             3               42   Texas – BBBEF             38            70              108
Kansas                                     12            29               41   Texas – NHCOA          2,176           815            2,991
Kentucky                                    2             2                4   Utah                      31            18               49
Louisiana                                   3            18               21   Vermont                   10            13               23
Maine                                       0             6                6   Virginia                  14            11               25
Maryland                                   21            28               49   Virgin Islands             0             0                0
Massachusetts                              10            46               56   Washington             8,624           237            8,861
Michigan                                   84            46              130   West Virginia             28           132              160
Minnesota                               1,262           475            1,737   Wisconsin                  1             8                9
Mississippi                               756             0              756   Wyoming                    0             0                0
Missouri                                    4            49               53
A P P E N D       I X         ~   C




                                      

                         PERFORMANCE MEASURE 13A: Number of Complex Issues Referred for Further Action
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                     4             3                7   Montana                   10             2               12
Alaska                                      2             0                2   Nebraska                   2             3                5
Arizona                                    14            2                16   Nevada                     0             4                4
Arkansas                                   20             1               21   New Hampshire              5            12               17
California                                 25           20                45   New Jersey                 6             8               14
Colorado                                    7            0                 7   New Mexico                78            13               91
Connecticut                                 5            8                13   New York                  40            41               81
Delaware                                    0            3                 3   North Carolina             0             0                0
District of Columbia – AARP                 0            1                 1   North Dakota               0             0                0
District of Columbia – FH                   0            0                 0   Ohio                       2             3                5
Florida                                    50           60               110   Oklahoma                   2             2                4
Georgia – AAA                              37            4                41   Oregon                     5             2                7
Georgia – Cares                            44           12                56   Pennsylvania               1             1                2
Guam                                        3            1                 4   Puerto Rico                6             2                8
Hawaii                                      0            0                 0   Rhode Island               6             3                9
Idaho                                       8            0                 8   South Carolina            22             4               26
Illinois                                    0             0                0   South Dakota               4             0                4
Indiana                                     2             2                4   Tennessee                  7             1                8
Iowa                                        0             1                1   Texas – BBBEF             21            47               68
Kansas                                      1             2                3   Texas – NHCOA          1,841           239            2,080
Kentucky                                    0             2                2   Utah                      20             5               25
Louisiana                                   3            5                 8   Vermont                    3             6                9
Maine                                       0             1                1   Virginia                  13             1               14
Maryland                                    7             2                9   Virgin Islands             0             0                0
Massachusetts                              10             0               10   Washington               225           237              462
Michigan                                    3            0                 3   West Virginia             11            45               56
Minnesota                                 384           55               439   Wisconsin                  0             6                6
Mississippi                               167             0              167   Wyoming                    0             0                0
Missouri                                    2             4                6
A P P E N D       I X         ~     C




                                        

                                  PERFORMANCE MEASURE 13B: Total Dollar Amount Referred for Further Action
                                    Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                     $69        $1,602           $1,670   Montana                   $0      $27,349           $27,349
Alaska                                      $57            $0              $57   Nebraska              $2,610      $20,610           $23,221
Arizona                                      $0            $0               $0   Nevada                    $0      $10,819           $10,819
Arkansas                                 $4,950          $644           $5,594   New Hampshire         $1,303             0           $1,303
California                                   $0            $0               $0   New Jersey          $11,132       $33,707           $44,839
Colorado                                 $4,011          $725           $4,735   New Mexico          $59,694      $237,110         $296,804
Connecticut                                  $0        $3,862           $3,862   New York            $49,540       $84,466         $134,006
Delaware                                     $0            $0               $0   North Carolina            $0            $0               $0
District of Columbia – AARP                  $0          $600             $600   North Dakota              $0            $0               $0
District of Columbia – FH                    $0            $0               $0   Ohio                      $0        $4,505           $4,505
Florida                               $230,878      $153,278         $384,155    Oklahoma                  $0      $12,055           $12,055
Georgia – AAA                                NA          $389             $389   Oregon                    $0        $1,242           $1,242
Georgia – Cares                        $16,047         $9,711          $25,758   Pennsylvania            $125      $10,949           $11,074
Guam                                         $0      $20,466           $20,466   Puerto Rico               $0          $315             $315
Hawaii                                       $0            $0               $0   Rhode Island              NA           $40              $40
Idaho                                    $9,589        $7,977          $17,566   South Carolina            $0      $35,250           $35,250
Illinois                               $11,456       $13,133           $24,589   South Dakota              $0            $0               $0
Indiana                                      $0          $916             $916   Tennessee           $85,219           $465          $85,684
Iowa                                         $0            $0               $0   Texas – BBBEF       $25,171       $12,074           $37,246
Kansas                                   $5,106      $21,023           $26,128   Texas – NHCOA      $154,027       $46,682         $200,709
Kentucky                                     $0           $80              $80   Utah                      $0        $6,627           $6,627
Louisiana                                    $0        $7,939           $7,939   Vermont               $1,079            $0           $1,079
Maine                                        $0        $1,264           $1,264   Virginia                  $0            $0               $0
Maryland                                     $0            $0               $0   Virgin Islands            $0            $0               $0
Massachusetts                              $440            $0             $440   Washington                NA            NA               NA
Michigan                                 $2,304          $120           $2,424   West Virginia             $0      $33,223           $33,223
Minnesota                                $1,812      $13,193           $15,005   Wisconsin                 $0          $209             $209
Mississippi                                  $0            $0               $0   Wyoming                   $0            $0               $0
Missouri                                     $0        $6,110           $6,110
A P P E N D       I X         ~   C




                                      

                                      PERFORMANCE MEASURE 14: Number of Complex Issues Resolved
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                     2            11               13   Montana                   99             7              106
Alaska                                      0             0                0   Nebraska                  39             4               43
Arizona                                     9             8               17   Nevada                     0             6                6
Arkansas                                   15            34               49   New Hampshire              2           773              775
California                                  1             0                1   New Jersey                 2             1                3
Colorado                                    3             1                4   New Mexico                10             5               15
Connecticut                                 1            11               12   New York                  43            31               74
Delaware                                    1             0                1   North Carolina             0             0                0
District of Columbia – AARP                 0             1                1   North Dakota               0             3                3
District of Columbia – FH                   0             0                0   Ohio                       0             6                6
Florida                                    24            37               61   Oklahoma                   1             2                3
Georgia – AAA                              80            32              112   Oregon                     0             1                1
Georgia – Cares                             0             3                3   Pennsylvania               3             3                6
Guam                                        0             1                1   Puerto Rico                3             1                4
Hawaii                                      0             0                0   Rhode Island              32             4               36
Idaho                                      12             3               15   South Carolina            12            32               44
Illinois                                    2             3                5   South Dakota               3             0                3
Indiana                                     0             1                1   Tennessee                 16             5               21
Iowa                                       30             3               33   Texas – BBBEF              8            48               56
Kansas                                      1             8                9   Texas – NHCOA            335           576              911
Kentucky                                    0             0                0   Utah                      11            11               22
Louisiana                                   1             2                3   Vermont                    3             9               12
Maine                                       0             1                1   Virginia                   9             1               10
Maryland                                   14             7               21   Virgin Islands             0             0                0
Massachusetts                               2             0                2   Washington               225           237              462
Michigan                                   84            46              130   West Virginia              1             6                7
Minnesota                               1,056           453            1,509   Wisconsin                  0             2                2
Mississippi                               589             0              589   Wyoming                    0             0                0
Missouri                                    0             1                1
A P P E N D       I X         ~      C




                                         

                                  PERFORMANCE MEASURE 15: Number of Complex Issues Pending Further Action
                                     Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                       19             4               23   Montana                    0             2                2
Alaska                                         2             0                2   Nebraska                   6             3                9
Arizona                                        5           11                16   Nevada                     0            10               10
Arkansas                                      15            26               41   New Hampshire              5             0                5
California                                    71            51              122   New Jersey                12            14               26
Colorado                                      19             5               24   New Mexico                68            61              129
Connecticut                                    5             4                9   New York                   9            10               19
Delaware                                       3             5                8   North Carolina             0             0                0
District of Columbia – AARP                    0             0                0   North Dakota               1             0                1
District of Columbia – FH                      0             0                0   Ohio                       4            12               16
Florida                                       39           81               120   Oklahoma                   2             2                4
Georgia – AAA                                 30             4               34   Oregon - SMP               0             1                1
Georgia – Cares                               44             9               53   Pennsylvania               2             1                3
Guam                                           3             2                5   Puerto Rico                3             1                4
Hawaii                                         0             0                0   Rhode Island              15             0               15
Idaho                                         20             4               24   South Carolina            10            29               39
Illinois                                       4             0                4   South Dakota               3             0                3
Indiana                                        5             2                7   Tennessee                 10             5               15
Iowa                                           9             7               16   Texas – BBBEF             15            18               33
Kansas                                         7            11               18   Texas – NHCOA          1,841           239            2,080
Kentucky                                       2             2                4   Utah                       6             7               13
Louisiana                                      4             3                7   Vermont                    6             4               10
Maine                                          0             1                1   Virginia                   3             4                7
Maryland                                       7             4               11   Virgin Islands             0             0                0
Massachusetts                                  8             0                8   Washington                 0             0                0
Michigan                                       0             0                0   West Virginia             10            12               22
Minnesota                                    206            22              228   Wisconsin                  0             6                6
Mississippi                                  167             0              167   Wyoming                    0             0                0
Missouri                                       2             4                6
A P P E N D       I X         ~   C




                                      

                 PERFORMANCE MEASURE 16: Cost Avoidance on Behalf of Medicare, Medicaid, Beneficiary or Other
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    $0            $0               $0   Montana               $3,260            $0           $3,260
Alaska                                    $57            $0              $57   Nebraska            $10,273             $0          $10,273
Arizona                                    $0            $0               $0   Nevada                    $0            $0               $0
Arkansas                                   $0            $0               $0   New Hampshire         $1,303            $0           $1,303
California                         $7,367,462            $0      $7,367,462    New Jersey                $0            $0               $0
Colorado                                   $0          $690             $690   New Mexico                $0            $0               $0
Connecticut                                $0            $0               $0   New York                  $0            $0               $0
Delaware                                   $0            $0               $0   North Carolina            $0            $0               $0
District of Columbia – AARP                $0            $0               $0   North Dakota              $0            $0               $0
District of Columbia – FH                  $0            $0               $0   Ohio                      $0            $0               $0
Florida                                    $0        $3,279           $3,279   Oklahoma                  $0      $11,422           $11,422
Georgia – AAA                              $0            $0               $0   Oregon                    $0            $0               $0
Georgia – Cares                            $0            $0               $0   Pennsylvania              $0            $0               $0
Guam                                       $0            $0               $0   Puerto Rico               $0            $0               $0
Hawaii                                     $0            $0               $0   Rhode Island              NA            $0               $0
Idaho                                    $956      $16,635           $17,591   South Carolina            $0            $0               $0
Illinois                                   $0            $0               $0   South Dakota              $0            $0               $0
Indiana                                    $0            $0               $0   Tennessee           $22,395             $0          $22,395
Iowa                                       $0            $0               $0   Texas – BBBEF             $0            $0               $0
Kansas                                     $0          $497             $497   Texas – NHCOA             $0            $0               $0
Kentucky                                   $0        $1,208           $1,208   Utah                      $0        $2,889           $2,889
Louisiana                                  $0            $0               $0   Vermont                   $0            $0               $0
Maine                                      $0            $0               $0   Virginia                  $0            $0               $0
Maryland                                   $0            $0               $0   Virgin Islands            $0            $0               $0
Massachusetts                          $6,000            $0           $6,000   Washington                NA            NA               NA
Michigan                                   $0            $0               $0   West Virginia             $0            $0               $0
Minnesota                                  $0            $0               $0   Wisconsin                 $0            $0               $0
Mississippi                                $0            $0               $0   Wyoming                   $0            $0               $0
Missouri                                   $0            $0               $0
A P P E N D       I X         ~   C




                                      

                     PERFORMANCE MEASURE 17A: Actual Medicare Funds Recovered Attributable to the Projects
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    $0            $0               $0   Montana                   $0            $0               $0
Alaska                                     $0            $0               $0   Nebraska                  $0            $0               $0
Arizona                                    $0            $0               $0   Nevada                    $0            $0               $0
Arkansas                                   $0            $0               $0   New Hampshire             $0            $0               $0
California                           $93,779         $3,805          $97,583   New Jersey                $0          $385             $385
Colorado                                   $0            $0               $0   New Mexico                $0            $0               $0
Connecticut                                $0            $0               $0   New York              $9,841      $22,054           $31,895
Delaware                                   $0            $0               $0   North Carolina            $0            $0               $0
District of Columbia – AARP                $0            $0               $0   North Dakota              $0            $0               $0
District of Columbia – FH                  $0            $0               $0   Ohio                      $0            $0               $0
Florida                              $71,742             $0          $71,742   Oklahoma                  $0            $0               $0
Georgia – AAA                              $0            $0               $0   Oregon                    $0            $0               $0
Georgia – Cares                            $0            $0               $0   Pennsylvania              $0            $0               $0
Guam                                       $0            $0               $0   Puerto Rico              $67            $0              $67
Hawaii                                     $0            $0               $0   Rhode Island              NA            $0               $0
Idaho                                      $0            $0               $0   South Carolina            $0            $0               $0
Illinois                                   $0      $13,133           $13,133   South Dakota              $0            $0               $0
Indiana                                    $0            $0               $0   Tennessee           $62,338             $0          $62,338
Iowa                                       $0            $0               $0   Texas – BBBEF             $0            $0               $0
Kansas                                     $0          $437             $437   Texas – NHCOA            $63            $0              $63
Kentucky                                   $0            $0               $0   Utah                  $3,358            $0           $3,358
Louisiana                                  $0        $4,403           $4,403   Vermont                   $0            $0               $0
Maine                                      $0            $0               $0   Virginia                  $0            $0               $0
Maryland                                   $0            $0               $0   Virgin Islands            $0            $0               $0
Massachusetts                              $0            $0               $0   Washington                NA            NA               NA
Michigan                                   $0            $0               $0   West Virginia             $0            $0               $0
Minnesota                                  $0            $0               $0   Wisconsin                 $0            $0               $0
Mississippi                                $0            $0               $0   Wyoming                   $0            $0               $0
Missouri                             $16,912             $0          $16,912
A P P E N D       I X         ~   C




                                      

                     PERFORMANCE MEASURE 17B: Actual Medicaid Funds Recovered Attributable to the Projects
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    $0            $0               $0   Montana                   $0            $0               $0
Alaska                                     $0            $0               $0   Nebraska                  $0           $0                $0
Arizona                                    $0           $0                $0   Nevada                    $0           $0                $0
Arkansas                                   $0           $0                $0   New Hampshire             $0           $0                $0
California                                 $0            $0               $0   New Jersey                $0           $0                $0
Colorado                                   $0           $0                $0   New Mexico                $0           $0                $0
Connecticut                                $0           $0                $0   New York                  $0           $0                $0
Delaware                                   $0           $0                $0   North Carolina            $0           $0                $0
District of Columbia – AARP                $0           $0                $0   North Dakota              $0           $0                $0
District of Columbia – FH                  $0           $0                $0   Ohio                      $0           $0                $0
Florida                                    $0           $0                $0   Oklahoma                  $0           $0                $0
Georgia – AAA                              $0           $0                $0   Oregon                    $0           $0                $0
Georgia – Cares                            $0           $0                $0   Pennsylvania              $0           $0                $0
Guam                                       $0           $0                $0   Puerto Rico               $0           $0                $0
Hawaii                                     $0           $0                $0   Rhode Island              NA           $0                $0
Idaho                                      $0           $0                $0   South Carolina            $0            $0               $0
Illinois                                   $0            $0               $0   South Dakota              $0            $0               $0
Indiana                                    $0            $0               $0   Tennessee                 $0            $0               $0
Iowa                                       $0            $0               $0   Texas – BBBEF             $0            $0               $0
Kansas                                     $0            $0               $0   Texas – NHCOA             $0            $0               $0
Kentucky                                   $0            $0               $0   Utah                      $0            $0               $0
Louisiana                                  $0            $0               $0   Vermont                   $0            $0               $0
Maine                                      $0            $0               $0   Virginia                  $0            $0               $0
Maryland                                   $0            $0               $0   Virgin Islands            $0            $0               $0
Massachusetts                              $0            $0               $0   Washington                NA           NA                NA
Michigan                                   $0            $0               $0   West Virginia             $0            $0               $0
Minnesota                                  $0            $0               $0   Wisconsin                 $0            $0               $0
Mississippi                                $0            $0               $0   Wyoming                   $0            $0               $0
Missouri                                   $0            $0               $0
A P P E N D       I X         ~   C




                                      

                        PERFORMANCE MEASURE 17C: Actual Savings to Beneficiaries Attributable to the Projects
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    $0            $0               $0   Montana                   $0            $0               $0
Alaska                                     $0            $0               $0   Nebraska                $969            $0             $969
Arizona                                    $0            $0               $0   Nevada                    $0            $0               $0
Arkansas                               $1,670            $0           $1,670   New Hampshire           $243            $0             $243
California                                 $0            $0               $0   New Jersey                $0          $275             $275
Colorado                               $5,608            $0           $5,608   New Mexico                $0            $0               $0
Connecticut                                $0            $0               $0   New York                  $0            $0               $0
Delaware                                   $0            $0               $0   North Carolina            $0            $0               $0
District of Columbia – AARP                $0            $0               $0   North Dakota              $0            $0               $0
District of Columbia – FH                  $0            $0               $0   Ohio                      $0        $2,699           $2,699
Florida                                    $0          $745             $745   Oklahoma                  $0          $182             $182
Georgia – AAA                              $0            $0               $0   Oregon                    $0          $125             $125
Georgia – Cares                            $0            $0               $0   Pennsylvania              $0            $0               $0
Guam                                       $0            $0               $0   Puerto Rico               $0            $0               $0
Hawaii                                     $0            $0               $0   Rhode Island              NA            $0               $0
Idaho                                      $0          $725             $725   South Carolina            $0            $0               $0
Illinois                                 $656            $0             $656   South Dakota              $0            $0               $0
Indiana                                    $0            $0               $0   Tennessee               $280            $0             $280
Iowa                                       $0            $0               $0   Texas – BBBEF             $0            $0               $0
Kansas                                   $103            $0             $103   Texas – NHCOA             $0          $225             $225
Kentucky                                   $0            $0               $0   Utah                      $0        $3,570           $3,570
Louisiana                                  $0            $0               $0   Vermont                   $0           $84              $84
Maine                                      $0            $0               $0   Virginia                  $0            $0               $0
Maryland                                   $0            $0               $0   Virgin Islands            $0            $0               $0
Massachusetts                              $0            $0               $0   Washington                NA            $0               $0
Michigan                                   $0            $0               $0   West Virginia             $0            $0               $0
Minnesota                           $113,888         $8,056        $121,944    Wisconsin                 $0            $0               $0
Mississippi                                $0            $0               $0   Wyoming                   $0            $0               $0
Missouri                                 $116            $0             $116
A P P E N D       I X         ~   C




                                      

                                  PERFORMANCE MEASURE 17D: Others Savings Attributable to the Projects
                                  Jan. – June   July – Dec.   Total for 2007                    Jan. – June   July – Dec.   Total for 2007
Alabama                                    $0          $122             $122   Montana                   $0            $0               $0
Alaska                                     $0            $0               $0   Nebraska                  $0            $0               $0
Arizona                                    $0            $0               $0   Nevada                    $0            $0               $0
Arkansas                                   $0            $0               $0   New Hampshire             $0            $0               $0
California                                 $0            $0               $0   New Jersey                $0            $0               $0
Colorado                                   $0            $0               $0   New Mexico                $0            $0               $0
Connecticut                                $0            $0               $0   New York                  $0            $0               $0
Delaware                                   $0            $0               $0   North Carolina            $0            $0               $0
District of Columbia – AARP                $0            $0               $0   North Dakota              $0            $0               $0
District of Columbia – FH                  $0            $0               $0   Ohio                      $0            $0               $0
Florida                                    $0            $0               $0   Oklahoma                  $0            $0               $0
Georgia – AAA                              $0            $0               $0   Oregon                    $0            $0               $0
Georgia – Cares                            $0            $0               $0   Pennsylvania              $0            $0               $0
Guam                                       $0            $0               $0   Puerto Rico               $0            $0               $0
Hawaii                                     $0            $0               $0   Rhode Island              NA            $0               $0
Idaho                                      $0            $0               $0   South Carolina            $0        $4,400           $4,400
Illinois                                   $0            $0               $0   South Dakota              $0            $0               $0
Indiana                                    $0            $0               $0   Tennessee                 $0            $0               $0
Iowa                                       $0            $0               $0   Texas – BBBEF             $0            $0               $0
Kansas                                     $0            $0               $0   Texas – NHCOA         $7,009            $0           $7,009
Kentucky                                   $0            $0               $0   Utah                      $0            $0               $0
Louisiana                                  $0            $0               $0   Vermont                   $0            $0               $0
Maine                                      $0            $0               $0   Virginia                  $0            $0               $0
Maryland                                   $0            $0               $0   Virgin Islands            $0            $0               $0
Massachusetts                              $0            $0               $0   Washington                NA            NA               NA
Michigan                                   $0            $0               $0   West Virginia             $0            $0               $0
Minnesota                                  $0            $0               $0   Wisconsin                 $0            $0               $0
Mississippi                                $0            $0               $0   Wyoming                   $0            $0               $0
Missouri                                   $0            $0               $0
  Δ       A P P E N D I X               ~     D




                                        Individual Project Results for 2007
The following tables provide the results for all performance measures for each of the 57 Senior Medicare Patrol Projects operating in




                                                                                                                                        

2007. Each table provides the performance measure results for the two 6-month reporting periods.




                                                                                                   

Not applicable or NA indicates that data were not collected for this performance measure.




                                                                                            

Totals may not add up because of rounding.


                                             





                                                                                                                               31
A P P E N D       I X ~ D




                                

                                             Alabama – Department of Senior Services, Montgomery
In operation since: July 2006
                                                                                         Jan. – June   July – Dec.   Total for 2007
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                  160            92              252
2            Total number of volunteer training hours                                           649         3,369            4,018
3            Total number of volunteer work hours                                                 8         5,847            5,855
4            Number of media outreach events                                                     40           120              160
5            Number of community outreach education events conducted                            334            99              433
6            Estimated number of people reached by community education events                 5,191       129,748          134,939
7            Number of group education sessions for beneficiaries                                76           174              250
8            Number of beneficiaries who attended group education sessions                    2,222         6,409            8,631
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        519            87              606
10           Total number of simple inquiries received                                           49         1,014            1,063
11           Total number of simple inquiries resolved                                           49         1,011            1,060
12           Number of complex issues received                                                   24            20               44
13A          Number of complex issues referred for further action                                 4             3                7
13B          Total dollar amount referred for further action                                    $69        $1,602           $1,670
14           Number of complex issues resolved                                                    2            11               13
15           Number of complex issues pending further action                                     19             4               23
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0          $122             $122
17A –17D     Total savings attributable to the projects                                          $0          $122             $122
 A P P E N D         I X ~ D




                                  

                                      Alaska – Medicare Senior Information & Referral Office, Anchorage
In operation since: July 1999                                                            Jan. – June      July – Dec.   Total for 2007
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                   78               53              131
2            Total number of volunteer training hours                                             4                4                8
3            Total number of volunteer work hours                                             1,560            1,060            2,620
4            Number of media outreach events                                                      1                5                6
5            Number of community outreach education events conducted                              8                3               11
6            Estimated number of people reached by community education events               663,000          670,000        1,333,000
7            Number of group education sessions for beneficiaries                                 1                1                2
8            Number of beneficiaries who attended group education sessions                       14               25               39
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          2                1                3
10           Total number of simple inquiries received                                            0                0                0
11           Total number of simple inquiries resolved                                            0                0                0
12           Number of complex issues received                                                    2                0                2
13A          Number of complex issues referred for further action                                 2                0                2
13B          Total dollar amount referred for further action                                    $57               $0              $57
14           Number of complex issues resolved                                                    0                0                0
15           Number of complex issues pending further action                                      2                0                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other              $57               $0              $57
17A          Actual Medicare funds recovered attributable to the projects                        $0               $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0               $0               $0
17A –17D     Total savings attributable to the projects                                          $0               $0               $0
A P P E N D       I X       ~     D




                                      

                                          Arizona – Arizona Department of Economic Security, Phoenix
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   31            41               72
2            Total number of volunteer training hours                                            82           162              244
3            Total number of volunteer work hours                                             5,675           407            6,082
4            Number of media outreach events                                                      9             4               13
5            Number of community outreach education events conducted                            103            74              177
6            Estimated number of people reached by community education events                 4,103         3,867            7,970
7            Number of group education sessions for beneficiaries                                 1            74               75
8            Number of beneficiaries who attended group education sessions                      166         3,867            4,033
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        240           297              537
10           Total number of simple inquiries received                                           34           297              331
11           Total number of simple inquiries resolved                                           34           100              134
12           Number of complex issues received                                                   23            19               42
13A          Number of complex issues referred for further action                                14             2               16
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                    9             8               17
15           Number of complex issues pending further action                                      5            11               16
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

             Arkansas – Arkansas Department of Human Services Division of Aging and Adult Services, Little Rock
In operation since: July 2002                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   94            50              144
2            Total number of volunteer training hours                                             0           139              139
3            Total number of volunteer work hours                                               723           517            1,240
4            Number of media outreach events                                                     20            36               56
5            Number of community outreach education events conducted                             30            25               55
6            Estimated number of people reached by community education events                 1,838         2,812            4,650
7            Number of group education sessions for beneficiaries                                26            26               52
8            Number of beneficiaries who attended group education sessions                      315           436              751
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        181           125              306
10           Total number of simple inquiries received                                          165           125              290
11           Total number of simple inquiries resolved                                          154           120              274
12           Number of complex issues received                                                   40            60              100
13A          Number of complex issues referred for further action                                20             1               21
13B          Total dollar amount referred for further action                                 $4,950          $644           $5,594
14           Number of complex issues resolved                                                   15            34               49
15           Number of complex issues pending further action                                     15            26               41
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                    $1,670            $0           $1,670
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                      $1,670            $0           $1,670
A P P E N D       I X       ~     D




                                      

                 California – California Health Insurance Counseling Advocacy Programs Association, Santa Ana
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  526           149              675
2            Total number of volunteer training hours                                           670           206              876
3            Total number of volunteer work hours                                               510           830            1,340
4            Number of media outreach events                                                      9            23               32
5            Number of community outreach education events conducted                             95            50              145
6            Estimated number of people reached by community education events                10,299        14,093           24,392
7            Number of group education sessions for beneficiaries                               143           290              433
8            Number of beneficiaries who attended group education sessions                    3,984         8,854           12,838
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         70             0               70
10           Total number of simple inquiries received                                           14            40               54
11           Total number of simple inquiries resolved                                            5            29               34
12           Number of complex issues received                                                   73            34              107
13A          Number of complex issues referred for further action                                25            20               45
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                    1             0                1
15           Number of complex issues pending further action                                     71            51              122
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other       $7,367,462            $0       $7,367,462
17A          Actual Medicare funds recovered attributable to the projects                   $93,779        $3,805          $97,583
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                     $93,779        $3,805          $97,583
A P P E N D       I X       ~     D




                                      

                                                 Colorado – Colorado Division of Insurance, Denver
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  122            76              198
2            Total number of volunteer training hours                                           383           770            1,153
3            Total number of volunteer work hours                                                 0            NA                0
4            Number of media outreach events                                                      2             2                4
5            Number of community outreach education events conducted                             34            13               47
6            Estimated number of people reached by community education events                 5,195           469            5,664
7            Number of group education sessions for beneficiaries                                70            39              109
8            Number of beneficiaries who attended group education sessions                    1,591           890            2,481
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0           154              154
10           Total number of simple inquiries received                                            1             0                1
11           Total number of simple inquiries resolved                                            1             0                1
12           Number of complex issues received                                                   24            11               35
13A          Number of complex issues referred for further action                                 7             0                7
13B          Total dollar amount referred for further action                                 $4,011          $725           $4,735
14           Number of complex issues resolved                                                    3             1                4
15           Number of complex issues pending further action                                     19             5               24
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0          $690             $690
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                    $5,608            $0           $5,608
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                      $5,608            $0           $5,608
A P P E N D       I X       ~     D




                                      

                    Connecticut – Connecticut Department of Social Services, Aging Services Division, Hartford
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  389             8              397
2            Total number of volunteer training hours                                           976             0              976
3            Total number of volunteer work hours                                             1,445         1,466            2,911
4            Number of media outreach events                                                     18            15               33
5            Number of community outreach education events conducted                            227            39              266
6            Estimated number of people reached by community education events                 9,551        53,442           62,993
7            Number of group education sessions for beneficiaries                                60            13               73
8            Number of beneficiaries who attended group education sessions                    1,237         1,365            2,602
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         46             1               47
10           Total number of simple inquiries received                                           18            19               37
11           Total number of simple inquiries resolved                                           16            18               34
12           Number of complex issues received                                                    6            15               21
13A          Number of complex issues referred for further action                                 5             8               13
13B          Total dollar amount referred for further action                                     $0        $3,862           $3,862
14           Number of complex issues resolved                                                    1            11               12
15           Number of complex issues pending further action                                      5             4                9
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                Delaware – Delaware Partners - Division of Aging and Adults with Physical Disabilities, New Castle
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   18            19               37
2            Total number of volunteer training hours                                           200           164              364
3            Total number of volunteer work hours                                               337           486              823
4            Number of media outreach events                                                    500            15              515
5            Number of community outreach education events conducted                             70            31              101
6            Estimated number of people reached by community education events                 3,690         1,155            4,845
7            Number of group education sessions for beneficiaries                                35            83              118
8            Number of beneficiaries who attended group education sessions                      595         1,220            1,815
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        156           196              352
10           Total number of simple inquiries received                                           86            67              153
11           Total number of simple inquiries resolved                                           86            65              151
12           Number of complex issues received                                                    4             2                6
13A          Number of complex issues referred for further action                                 0             3                3
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                    1             0                1
15           Number of complex issues pending further action                                      3             5                8
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                          District of Columbia – The AARP Foundation, Washington, DC
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   35            35               70
2            Total number of volunteer training hours                                             8            53               61
3            Total number of volunteer work hours                                                30            36               66
4            Number of media outreach events                                                      2             3                5
5            Number of community outreach education events conducted                             14             2               16
6            Estimated number of people reached by community education events                 1,253           490            1,743
7            Number of group education sessions for beneficiaries                                14             9               23
8            Number of beneficiaries who attended group education sessions                    1,253           189            1,442
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0             0                0
10           Total number of simple inquiries received                                            8             9               17
11           Total number of simple inquiries resolved                                            8             9               17
12           Number of complex issues received                                                    0             1                1
13A          Number of complex issues referred for further action                                 0             1                1
13B          Total dollar amount referred for further action                                     $0          $600             $600
14           Number of complex issues resolved                                                    0             1                1
15           Number of complex issues pending further action                                      0             0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                   District of Columbia – Friendship House Association, Washington, DC
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   12            15               27
2            Total number of volunteer training hours                                            22            67               89
3            Total number of volunteer work hours                                               135           111              246
4            Number of media outreach events                                                      2             1                3
5            Number of community outreach education events conducted                              5             4                9
6            Estimated number of people reached by community education events               103,150       153,000          256,150
7            Number of group education sessions for beneficiaries                                 2             1                3
8            Number of beneficiaries who attended group education sessions                       78            12               90
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          3             3                6
10           Total number of simple inquiries received                                           19             4               23
11           Total number of simple inquiries resolved                                           19             4               23
12           Number of complex issues received                                                    1             1                2
13A          Number of complex issues referred for further action                                 0             0                0
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                    0             0                0
15           Number of complex issues pending further action                                      0             0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                   Florida – Area Agency on Aging of Pasco Pinellas, Inc., St. Petersburg

In operation since: July 1999                                                            Jan. – June    July – Dec.    Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   53              23               76
2            Total number of volunteer training hours                                            19              20               39
3            Total number of volunteer work hours                                               152             331              483
4            Number of media outreach events                                                      5               8               13
5            Number of community outreach education events conducted                             81              91              172
6            Estimated number of people reached by community education events                12,537            8,325          20,862
7            Number of group education sessions for beneficiaries                                52              72              124
8            Number of beneficiaries who attended group education sessions                    4,848            2,874           7,722
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         25               5               30
10           Total number of simple inquiries received                                          114              39              153
11           Total number of simple inquiries resolved                                           99              28              127
12           Number of complex issues received                                                   58             124              182
13A          Number of complex issues referred for further action                                50              60              110
13B          Total dollar amount referred for further action                               $230,878         $153,278        $384,155
14           Number of complex issues resolved                                                   24              37               61
15           Number of complex issues pending further action                                     39              81              120
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0           $3,279          $3,279
17A          Actual Medicare funds recovered attributable to the projects                   $71,742              $0          $71,742
17B          Actual Medicaid funds recovered attributable to the projects                        $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $745             $745
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0              $0               $0
17A –17D     Total savings attributable to the projects                                     $71,742            $745          $72,487
A P P E N D       I X       ~     D




                                      

                                  Georgia – Atlanta Regional Commission Area Agency on Aging, Atlanta
In operation since: July 1999
                                                                                         Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   30            26               56
2            Total number of volunteer training hours                                             8           192              200
3            Total number of volunteer work hours                                             3,938           115            4,053
4            Number of media outreach events                                                      8            11               19
5            Number of community outreach education events conducted                             24            12               36
6            Estimated number of people reached by community education events                 3,462           636            4,098
7            Number of group education sessions for beneficiaries                               110            68              178
8            Number of beneficiaries who attended group education sessions                    3,553         2,473            6,026
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        459           161              620
10           Total number of simple inquiries received                                            5            54               59
11           Total number of simple inquiries resolved                                            5            54               59
12           Number of complex issues received                                                  110            54              164
13A          Number of complex issues referred for further action                                37             4               41
13B          Total dollar amount referred for further action                                     NA          $389             $389
14           Number of complex issues resolved                                                   80            32              112
15           Number of complex issues pending further action                                     30             4               34
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A     P   P E N D   I X       ~     D

                    Georgia – GeorgiaCares Department of Human Resources Division of Aging Services, Atlanta
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                   76            85              161
2            Total number of volunteer training hours                                           186            NA              186
3            Total number of volunteer work hours                                               135            NA              135
4            Number of media outreach events                                                    156           165              321
5            Number of community outreach education events conducted                            185           367              552
6            Estimated number of people reached by community education events                 8,716        36,779           45,495
7            Number of group education sessions for beneficiaries                                44           313              357
8            Number of beneficiaries who attended group education sessions                    1,919        41,908           43,827
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        514           278              792
10           Total number of simple inquiries received                                          711         1,440            2,151
11           Total number of simple inquiries resolved                                          698         1,382            2,080
12           Number of complex issues received                                                   65            96              161
13A          Number of complex issues referred for further action                                44            12               56
13B          Total dollar amount referred for further action                                $16,047        $9,711          $25,758
14           Number of complex issues resolved                                                    0             3                3
15           Number of complex issues pending further action                                     44             9               53
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                     Guam – Division of Senior Citizens Department of Public Health & Social Services, Hagatna
In operation since: July 2005                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   11            11               22
2            Total number of volunteer training hours                                             4           280              284
3            Total number of volunteer work hours                                               124           805              929
4            Number of media outreach events                                                      4           116              120
5            Number of community outreach education events conducted                              7            12               19
6            Estimated number of people reached by community education events                 1,650         2,075            3,725
7            Number of group education sessions for beneficiaries                                 7            28               35
8            Number of beneficiaries who attended group education sessions                       68           693              761
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        127           338              465
10           Total number of simple inquiries received                                           88           199              287
11           Total number of simple inquiries resolved                                           88           199              287
12           Number of complex issues received                                                    3             4                7
13A          Number of complex issues referred for further action                                 3             1                4
13B          Total dollar amount referred for further action                                     $0       $20,466          $20,466
14           Number of complex issues resolved                                                    0             1                1
15           Number of complex issues pending further action                                      3             2                5
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                          Hawaii – State of Hawaii Executive Office on Aging, Honolulu
In operation since: July 1997                                                            Jan. – June     July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  103              96              199
2            Total number of volunteer training hours                                           379               0              379
3            Total number of volunteer work hours                                                61              11               72
4            Number of media outreach events                                                      1               0                1
5            Number of community outreach education events conducted                             12               8               20
6            Estimated number of people reached by community education events                 7,000          25,650           32,650
7            Number of group education sessions for beneficiaries                                18               5               23
8            Number of beneficiaries who attended group education sessions                      350             400              750
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0               0                0
10           Total number of simple inquiries received                                           25               2               27
11           Total number of simple inquiries resolved                                           25               0               25
12           Number of complex issues received                                                    0               0                0
13A          Number of complex issues referred for further action                                 0               0                0
13B          Total dollar amount referred for further action                                     $0              $0               $0
14           Number of complex issues resolved                                                    0               0                0
15           Number of complex issues pending further action                                      0               0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0              $0               $0
17A –17D     Total savings attributable to the projects                                          $0              $0               $0
A P P E N D       I X       ~     D




                                      

                                                     Idaho – Idaho Commission on Aging, Boise
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   85           105              190
2            Total number of volunteer training hours                                           324           454              778
3            Total number of volunteer work hours                                               289         1,178            1,467
4            Number of media outreach events                                                      3             0                3
5            Number of community outreach education events conducted                             25            24               49
6            Estimated number of people reached by community education events                 2,480         1,584            4,064
7            Number of group education sessions for beneficiaries                                18            17               35
8            Number of beneficiaries who attended group education sessions                      454           500              954
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         36             0               36
10           Total number of simple inquiries received                                          398           448              846
11           Total number of simple inquiries resolved                                          364           429              793
12           Number of complex issues received                                                   36            19               55
13A          Number of complex issues referred for further action                                 8             0                8
13B          Total dollar amount referred for further action                                 $9,589        $7,977          $17,566
14           Number of complex issues resolved                                                   12             3               15
15           Number of complex issues pending further action                                     20             4               24
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other             $956       $16,635          $17,591
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0          $725             $725
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0          $725             $725
A P P E N D       I X       ~     D




                                      

                                                               Illinois – AgeOptions, Oak Park
In operation since: July 2006                                                                    Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                           36             8               44
2            Total number of volunteer training hours                                                   300             3              303
3            Total number of volunteer work hours                                                         0            80               80
4            Number of media outreach events                                                             27            28               55
5            Number of community outreach education events conducted                                    143           136              279
6            Estimated number of people reached by community education events                         8,860        22,623           31,483
7            Number of group education sessions for beneficiaries                                        57            47              104
8            Number of beneficiaries who attended group education sessions                            1,399         1,905            3,304
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                                134           179              313
10           Total number of simple inquiries received                                                  534           160              694
11           Total number of simple inquiries resolved                                                  531           160              691
12           Number of complex issues received                                                            7             3               10
13A          Number of complex issues referred for further action                                         0             0                0
13B          Total dollar amount referred for further action                                        $11,456       $13,133          $24,589
14           Number of complex issues resolved                                                            2             3                5
15           Number of complex issues pending further action                                              4             0                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                       $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                                $0       $13,133          $13,133
17B          Actual Medicaid funds recovered attributable to the projects                                $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                              $656            $0             $656
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                            $0            $0               $0
17A –17D     Total savings attributable to the projects                                                $656       $13,133          $13,789
A P P E N D       I X       ~     D




                                      

                     Indiana – Indiana Association of Area Agencies on Aging Education Institute, Indianapolis
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   57            30               87
2            Total number of volunteer training hours                                             3             3                6
3            Total number of volunteer work hours                                               731           361            1,092
4            Number of media outreach events                                                     32         2,507            2,539
5            Number of community outreach education events conducted                             98            71              169
6            Estimated number of people reached by community education events                21,835        18,885           40,720
7            Number of group education sessions for beneficiaries                                64            43              107
8            Number of beneficiaries who attended group education sessions                    1,997         1,445            3,442
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0             3                3
10           Total number of simple inquiries received                                           10           855              865
11           Total number of simple inquiries resolved                                            9           855              864
12           Number of complex issues received                                                    7             2                9
13A          Number of complex issues referred for further action                                 2             2                4
13B          Total dollar amount referred for further action                                     $0          $916             $916
14           Number of complex issues resolved                                                    0             1                1
15           Number of complex issues pending further action                                      5             2                7
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A    P   P E N D   I X      ~      D




                                         

                                             Iowa – Hawkeye Valley Area Agency on Aging, Waterloo
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                   38            74              112
2            Total number of volunteer training hours                                           209            36              245
3            Total number of volunteer work hours                                             1,474         1,555            3,029
4            Number of media outreach events                                                     82            54              136
5            Number of community outreach education events conducted                             52           209              261
6            Estimated number of people reached by community education events                 9,648        20,729           30,377
7            Number of group education sessions for beneficiaries                               263           206              469
8            Number of beneficiaries who attended group education sessions                    7,221         5,283           12,504
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         60            97              157
10           Total number of simple inquiries received                                            8            57               65
11           Total number of simple inquiries resolved                                            8            57               65
12           Number of complex issues received                                                   39             3               42
13A          Number of complex issues referred for further action                                 0             1                1
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                   30             3               33
15           Number of complex issues pending further action                                      9             7               16
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                                          Kansas – Department on Aging, Topeka
In operation since: July 1997                                                             Jan. – June     July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                      25            40               65
2            Total number of volunteer training hours                                               33           637              670
3            Total number of volunteer work hours                                                    0            59               59
4            Number of media outreach events                                                        16            47               63
5            Number of community outreach education events conducted                                21             9               30
6            Estimated number of people reached by community education events                     3,059        2,136            5,195
7            Number of group education sessions for beneficiaries                                   12             5               17
8            Number of beneficiaries who attended group education sessions                         506           186              692
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                            17             1               18
10           Total number of simple inquiries received                                              30            35               65
11           Total number of simple inquiries resolved                                              11            23               34
12           Number of complex issues received                                                      12            29               41
13A          Number of complex issues referred for further action                                    1             2                3
13B          Total dollar amount referred for further action                                     $5,106      $21,023          $26,128
14           Number of complex issues resolved                                                       1             8                9
15           Number of complex issues pending further action                                         7            11               18
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                  $0          $497             $497
17A          Actual Medicare funds recovered attributable to the projects                           $0          $437             $437
17B          Actual Medicaid funds recovered attributable to the projects                           $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                         $103            $0             $103
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                       $0            $0               $0
17A –17D     Total savings attributable to the projects                                           $103          $437             $540
A P P E N D       I X       ~     D




                                      

            Kentucky – Department of Housing & Family Services - Office for Aging and Disabled Citizens, Louisville
In operation since: July 2001                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  207           174              381
2            Total number of volunteer training hours                                           174           277              451
3            Total number of volunteer work hours                                             1,479         2,036            3,515
4            Number of media outreach events                                                    103           156              259
5            Number of community outreach education events conducted                             44            94              138
6            Estimated number of people reached by community education events                 3,016        11,477           14,493
7            Number of group education sessions for beneficiaries                                61            78              139
8            Number of beneficiaries who attended group education sessions                    1,325         1,595            2,920
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                      1,747         1,675            3,422
10           Total number of simple inquiries received                                          355           892            1,247
11           Total number of simple inquiries resolved                                            0           892              892
12           Number of complex issues received                                                    2             2                4
13A          Number of complex issues referred for further action                                 0             2                2
13B          Total dollar amount referred for further action                                     $0           $80              $80
14           Number of complex issues resolved                                                    0             0                0
15           Number of complex issues pending further action                                      2             2                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0        $1,208           $1,208
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                           Louisiana – Vernon Parish Council on Aging, Inc., Leesville
In operation since: July 2000                                                            Jan. – June     July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                    7              12               19
2            Total number of volunteer training hours                                            27              45               72
3            Total number of volunteer work hours                                                58              76              134
4            Number of media outreach events                                                    386              31              417
5            Number of community outreach education events conducted                             14              11               25
6            Estimated number of people reached by community education events                   366           2,615            2,981
7            Number of group education sessions for beneficiaries                                23              21               44
8            Number of beneficiaries who attended group education sessions                      411             445              856
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          9              17               26
10           Total number of simple inquiries received                                           11              36               47
11           Total number of simple inquiries resolved                                           10              32               42
12           Number of complex issues received                                                    3              18               21
13A          Number of complex issues referred for further action                                 3               5                8
13B          Total dollar amount referred for further action                                     $0          $7,939           $7,939
14           Number of complex issues resolved                                                    1               2                3
15           Number of complex issues pending further action                                      4               3                7
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0          $4,403           $4,403
17B          Actual Medicaid funds recovered attributable to the projects                        $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0              $0               $0
17A –17D     Total savings attributable to the projects                                          $0          $4,403           $4,403
A P P E N D       I X       ~     D




                                      

                                                  Maine – Legal Services for the Elderly, Augusta
In operation since: July 1999                                                            Jan. – June    July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   50             23               73
2            Total number of volunteer training hours                                            30            180              210
3            Total number of volunteer work hours                                                NA          5,999            5,999
4            Number of media outreach events                                                    119              9              128
5            Number of community outreach education events conducted                             55             23               78
6            Estimated number of people reached by community education events                 3,063          4,559            7,622
7            Number of group education sessions for beneficiaries                                35             85              120
8            Number of beneficiaries who attended group education sessions                      490          1,221            1,711
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        238            229              467
10           Total number of simple inquiries received                                              0          191              191
11           Total number of simple inquiries resolved                                              0          189              189
12           Number of complex issues received                                                      0            6                6
13A          Number of complex issues referred for further action                                   0            1                1
13B          Total dollar amount referred for further action                                     $0         $1,264           $1,264
14           Number of complex issues resolved                                                      0            1                1
15           Number of complex issues pending further action                                        0            1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0             $0               $0
17A –17D     Total savings attributable to the projects                                          $0             $0               $0
A P P E N D       I X       ~     D




                                      

                                              Maryland – Maryland Department of Aging, Baltimore
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   92           112              204
2            Total number of volunteer training hours                                         1,044         4,898            5,942
3            Total number of volunteer work hours                                             6,190         5,036           11,226
4            Number of media outreach events                                                     73             6               79
5            Number of community outreach education events conducted                             26           124              150
6            Estimated number of people reached by community education events                 9,632        29,584           39,216
7            Number of group education sessions for beneficiaries                               129            52              181
8            Number of beneficiaries who attended group education sessions                    4,942         1,562            6,504
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                      2,239           152            2,391
10           Total number of simple inquiries received                                          110           218              328
11           Total number of simple inquiries resolved                                          110           202              312
12           Number of complex issues received                                                   21            28               49
13A          Number of complex issues referred for further action                                 7             2                9
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                   14             7               21
15           Number of complex issues pending further action                                      7             4               11
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                      Massachusetts – Elder Services of Merrimack Valley, Inc., Lawrence
In operation since: July 1999                                                            Jan. – June       July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  450               420              870
2            Total number of volunteer training hours                                        10,500             1,750           12,250
3            Total number of volunteer work hours                                             1,271             4,320            5,591
4            Number of media outreach events                                                    182                21              203
5            Number of community outreach education events conducted                             94               181              275
6            Estimated number of people reached by community education events                 8,301             5,000           13,301
7            Number of group education sessions for beneficiaries                                 0                82               82
8            Number of beneficiaries who attended group education sessions                        0                 0                0
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        300            23,396           23,696
10           Total number of simple inquiries received                                          300                13              313
11           Total number of simple inquiries resolved                                          300                13              313
12           Number of complex issues received                                                   10                46               56
13A          Number of complex issues referred for further action                                10                 0               10
13B          Total dollar amount referred for further action                                   $440                $0             $440
14           Number of complex issues resolved                                                    2                 0                2
15           Number of complex issues pending further action                                      8                 0                8
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other           $6,000                $0           $6,000
17A          Actual Medicare funds recovered attributable to the projects                        $0                $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0                $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0                $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0                $0               $0
17A –17D     Total savings attributable to the projects                                          $0                $0               $0
A P P E N D       I X       ~     D




                                      

                                          Michigan – Medicare/Medicaid Assistance Program, Lansing
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   45            27               72
2            Total number of volunteer training hours                                         1,048         1,534            2,582
3            Total number of volunteer work hours                                                55           130              185
4            Number of media outreach events                                                      6            26               32
5            Number of community outreach education events conducted                             39            28               67
6            Estimated number of people reached by community education events                19,067        20,964           40,031
7            Number of group education sessions for beneficiaries                                29            37               66
8            Number of beneficiaries who attended group education sessions                      987         1,754            2,741
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         74            23               97
10           Total number of simple inquiries received                                           41            84              125
11           Total number of simple inquiries resolved                                           41            84              125
12           Number of complex issues received                                                   84            46              130
13A          Number of complex issues referred for further action                                 3             0                3
13B          Total dollar amount referred for further action                                 $2,304          $120           $2,424
14           Number of complex issues resolved                                                   84            46              130
15           Number of complex issues pending further action                                      0             0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                  Minnesota – Minnesota Board on Aging/Senior LinkAge Line, Saint Paul
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  403            27              430
2            Total number of volunteer training hours                                         2,526            77            2,603
3            Total number of volunteer work hours                                            18,289           180           18,469
4            Number of media outreach events                                                      2             4                6
5            Number of community outreach education events conducted                            152             8              160
6            Estimated number of people reached by community education events                 6,896         1,551            8,447
7            Number of group education sessions for beneficiaries                               132           150              282
8            Number of beneficiaries who attended group education sessions                    2,717         1,653            4,370
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         74            74              148
10           Total number of simple inquiries received                                           16            50               66
11           Total number of simple inquiries resolved                                           16            50               66
12           Number of complex issues received                                                1,262           475            1,737
13A          Number of complex issues referred for further action                               384            55              439
13B          Total dollar amount referred for further action                                 $1,812       $13,193          $15,005
14           Number of complex issues resolved                                                1,056           453            1,509
15           Number of complex issues pending further action                                    206            22              228
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                  $113,888        $8,056        $121,944
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                    $113,888        $8,056         $121,944
A P P E N D       I X       ~     D




                                      

            Mississippi – Mississippi Department of Human Services Division of Aging and Adult Services, Jackson
In operation since: July 2000                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   15             5               20
2            Total number of volunteer training hours                                            64            15               79
3            Total number of volunteer work hours                                             1,014         1,025            2,039
4            Number of media outreach events                                                      9            10               19
5            Number of community outreach education events conducted                             28            11               39
6            Estimated number of people reached by community education events                 2,393         1,115            3,508
7            Number of group education sessions for beneficiaries                                18            12               30
8            Number of beneficiaries who attended group education sessions                      693           471            1,164
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                      2,393           724            3,117
10           Total number of simple inquiries received                                           36             0               36
11           Total number of simple inquiries resolved                                           13             0               13
12           Number of complex issues received                                                  756             0              756
13A          Number of complex issues referred for further action                               167             0              167
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                  589             0              589
15           Number of complex issues pending further action                                    167             0              167
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                Missouri – SORT Program Care Connection for Aging Services, Warrensburg
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  103            22              125
2            Total number of volunteer training hours                                           168            83              251
3            Total number of volunteer work hours                                               317           258              575
4            Number of media outreach events                                                     10             6               16
5            Number of community outreach education events conducted                             26            37               63
6            Estimated number of people reached by community education events                   822         1,761            2,583
7            Number of group education sessions for beneficiaries                                52            14               66
8            Number of beneficiaries who attended group education sessions                      498           231              729
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        807           172              979
10           Total number of simple inquiries received                                           46           589              635
11           Total number of simple inquiries resolved                                           46           575              621
12           Number of complex issues received                                                    4            49               53
13A          Number of complex issues referred for further action                                 2             4                6
13B          Total dollar amount referred for further action                                     $0        $6,110           $6,110
14           Number of complex issues resolved                                                    0             1                1
15           Number of complex issues pending further action                                      2             4                6
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                   $16,912            $0          $16,912
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $116            $0             $116
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                     $17,028            $0          $17,028
A P P E N D       I X       ~     D




                                      

                                                   Montana – Missoula Aging Services, Missoula
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   83            73              156
2            Total number of volunteer training hours                                            56           226              282
3            Total number of volunteer work hours                                               423           139              562
4            Number of media outreach events                                                    194            41              235
5            Number of community outreach education events conducted                             83            11               94
6            Estimated number of people reached by community education events                 2,040           604            2,644
7            Number of group education sessions for beneficiaries                                49            83              132
8            Number of beneficiaries who attended group education sessions                    1,634         1,881            3,515
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        436           157              593
10           Total number of simple inquiries received                                            1             5                6
11           Total number of simple inquiries resolved                                            1             5                6
12           Number of complex issues received                                                  108            12              120
13A          Number of complex issues referred for further action                                10             2               12
13B          Total dollar amount referred for further action                                     $0       $27,349          $27,349
14           Number of complex issues resolved                                                   99             7              106
15           Number of complex issues pending further action                                      0             2                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other           $3,260            $0           $3,260
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                   Nebraska – Nebraska Department of Health and Human Services-State Unit on Aging, Lincoln
In operation since: July 2000                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   85           159              244
2            Total number of volunteer training hours                                           880         1,569            2,449
3            Total number of volunteer work hours                                             2,360         1,265            3,625
4            Number of media outreach events                                                      6             8               14
5            Number of community outreach education events conducted                             37            28               65
6            Estimated number of people reached by community education events                 6,863         2,687            9,550
7            Number of group education sessions for beneficiaries                               109            82              191
8            Number of beneficiaries who attended group education sessions                    2,766         2,657            5,423
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         30             9               39
10           Total number of simple inquiries received                                          205            47              252
11           Total number of simple inquiries resolved                                          205            47              252
12           Number of complex issues received                                                   45            16               61
13A          Number of complex issues referred for further action                                 2             3                5
13B          Total dollar amount referred for further action                                 $2,610       $20,610          $23,221
14           Number of complex issues resolved                                                   39             4               43
15           Number of complex issues pending further action                                      6             3                9
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other          $10,273            $0          $10,273
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $969            $0             $969
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                        $969            $0             $969
A P P E N D       I X       ~     D




                                      

                                      Nevada – State of Nevada Office of the Attorney General, Las Vegas
In operation since: July 1999                                                            Jan. – June       July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                    1                 2                3
2            Total number of volunteer training hours                                             0                 0                0
3            Total number of volunteer work hours                                                 0                 4                4
4            Number of media outreach events                                                      1                 6                7
5            Number of community outreach education events conducted                              6                22               28
6            Estimated number of people reached by community education events                   745             2,160            2,905
7            Number of group education sessions for beneficiaries                                 6                10               16
8            Number of beneficiaries who attended group education sessions                      140               229              369
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          2                99              101
10           Total number of simple inquiries received                                            9                66               75
11           Total number of simple inquiries resolved                                            8                64               72
12           Number of complex issues received                                                    0                19               19
13A          Number of complex issues referred for further action                                 0                 4                4
13B          Total dollar amount referred for further action                                     $0           $10,819          $10,819
14           Number of complex issues resolved                                                    0                 6                6
15           Number of complex issues pending further action                                      0                10               10
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0                $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0                $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0                $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0                $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0                $0               $0
17A –17D     Total savings attributable to the projects                                          $0                $0               $0
A P P E N D       I X       ~     D




                                      

                           New Hampshire – New Hampshire Bureau of Elderly and Adult Services, Concord
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   64            56              120
2            Total number of volunteer training hours                                            46           170              216
3            Total number of volunteer work hours                                             3,327         2,193            5,520
4            Number of media outreach events                                                     28            78              106
5            Number of community outreach education events conducted                             98           171              269
6            Estimated number of people reached by community education events                 2,342        10,450           12,792
7            Number of group education sessions for beneficiaries                                 6            32               38
8            Number of beneficiaries who attended group education sessions                      333         1,431            1,764
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        841         3,566            4,407
10           Total number of simple inquiries received                                            0           793              793
11           Total number of simple inquiries resolved                                            0           793              793
12           Number of complex issues received                                                    8           773              781
13A          Number of complex issues referred for further action                                 5            12               17
13B          Total dollar amount referred for further action                                 $1,303            $0           $1,303
14           Number of complex issues resolved                                                    2           773              775
15           Number of complex issues pending further action                                      5             0                5
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other           $1,303            $0           $1,303
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $243            $0             $243
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                        $243            $0             $243
A P P E N D       I X       ~     D




                                      

                         New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Edison
In operation since: July 2001                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   34            17               51
2            Total number of volunteer training hours                                            22            22               44
3            Total number of volunteer work hours                                                82            47              129
4            Number of media outreach events                                                     22             4               26
5            Number of community outreach education events conducted                             23            31               54
6            Estimated number of people reached by community education events                 2,756         2,920            5,676
7            Number of group education sessions for beneficiaries                                55            82              137
8            Number of beneficiaries who attended group education sessions                    2,289         2,078            4,367
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          8            27               35
10           Total number of simple inquiries received                                          174           101              275
11           Total number of simple inquiries resolved                                          168            99              267
12           Number of complex issues received                                                   22            11               33
13A          Number of complex issues referred for further action                                 6             8               14
13B          Total dollar amount referred for further action                                $11,132       $33,707          $44,839
14           Number of complex issues resolved                                                    2             1                3
15           Number of complex issues pending further action                                     12            14               26
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0          $385             $385
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0          $275             $275
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0          $660             $660
A P P E N D       I X       ~     D




                                      

                         New Mexico – New Mexico Aging and Long Term Services Department, Albuquerque
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  400           420              820
2            Total number of volunteer training hours                                         4,800         3,360            8,160
3            Total number of volunteer work hours                                             9,600         4,320           13,920
4            Number of media outreach events                                                      9             3               12
5            Number of community outreach education events conducted                             12            18               30
6            Estimated number of people reached by community education events                 4,156        34,923           39,079
7            Number of group education sessions for beneficiaries                               127           131              258
8            Number of beneficiaries who attended group education sessions                    1,533         2,571            4,104
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     20,066        16,787           36,853
10           Total number of simple inquiries received                                       20,066         4,663           24,729
11           Total number of simple inquiries resolved                                       15,499         4,567           20,066
12           Number of complex issues received                                                   78            96              174
13A          Number of complex issues referred for further action                                78            13               91
13B          Total dollar amount referred for further action                                $59,694      $237,110         $296,804
14           Number of complex issues resolved                                                   10             5               15
15           Number of complex issues pending further action                                     68            61              129
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                                    New York – Operation Restore Trust, Albany
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   210          230              440
2            Total number of volunteer training hours                                            11            17               28
3            Total number of volunteer work hours                                                 0             0                0
4            Number of media outreach events                                                     13             8               21
5            Number of community outreach education events conducted                              14           15               29
6            Estimated number of people reached by community education events                15,054         6,761           21,815
7            Number of group education sessions for beneficiaries                                105           78              183
8            Number of beneficiaries who attended group education sessions                    3,468         3,013            6,481
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                           0            0                0
10           Total number of simple inquiries received                                            31           24               55
11           Total number of simple inquiries resolved                                           30            24               54
12           Number of complex issues received                                                   70            64              134
13A          Number of complex issues referred for further action                                40            41               81
13B          Total dollar amount referred for further action                                $49,540       $84,466         $134,006
14           Number of complex issues resolved                                                   43            31               74
15           Number of complex issues pending further action                                      9            10               19
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                    $9,841       $22,054          $31,895
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                      $9,841       $22,054          $31,895
A P P E N D       I X       ~     D




                                      

                                                 North Carolina – Department of Insurance, Raleigh
In operation since: July 2003                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   14            12               26
2            Total number of volunteer training hours                                            89            58              147
3            Total number of volunteer work hours                                               960           890            1,850
4            Number of media outreach events                                                     40            66              106
5            Number of community outreach education events conducted                            100           102              202
6            Estimated number of people reached by community education events                19,150        15,108           34,258
7            Number of group education sessions for beneficiaries                                42            85              127
8            Number of beneficiaries who attended group education sessions                   13,546         8,761           22,307
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         67           278              345
10           Total number of simple inquiries received                                           82           310              392
11           Total number of simple inquiries resolved                                           82           310              392
12           Number of complex issues received                                                    0             0                0
13A          Number of complex issues referred for further action                                 0             0                0
13B          Total dollar amount referred for further action                                     $0            $0               $0
14           Number of complex issues resolved                                                    0             0                0
15           Number of complex issues pending further action                                      0             0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                                    North Dakota – Minot State University, Minot
In operation since: July 2003                                                            Jan. – June     July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                      47           33               80
2            Total number of volunteer training hours                                              47            34               81
3            Total number of volunteer work hours                                                  19            56               75
4            Number of media outreach events                                                        3            16               19
5            Number of community outreach education events conducted                                 5            8               13
6            Estimated number of people reached by community education events                      922        1,613            2,535
7            Number of group education sessions for beneficiaries                                   35           92              127
8            Number of beneficiaries who attended group education sessions                         743        1,967            2,710
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                            33           13               46
10           Total number of simple inquiries received                                              34          114              148
11           Total number of simple inquiries resolved                                              34          114              148
12           Number of complex issues received                                                      1             3                4
13A          Number of complex issues referred for further action                                   0             0                0
13B          Total dollar amount referred for further action                                        $0           $0               $0
14           Number of complex issues resolved                                                      0             3                3
15           Number of complex issues pending further action                                        1             0                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                 $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                           $0           $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                           $0           $0               $0
17C          Actual savings to beneficiaries attributable to the projects                          $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                       $0           $0               $0
17A –17D     Total savings attributable to the projects                                             $0           $0               $0
A P P E N D       I X       ~     D




                                      

                                                          Ohio – Pro Seniors, Inc., Cincinnati
In operation since: July 2002                                                               Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                      17            36               53
2            Total number of volunteer training hours                                               19           189              208
3            Total number of volunteer work hours                                                   98           102              200
4            Number of media outreach events                                                         1            69               70
5            Number of community outreach education events conducted                                 3            14               17
6            Estimated number of people reached by community education events                      817           696            1,513
7            Number of group education sessions for beneficiaries                                   22            18               40
8            Number of beneficiaries who attended group education sessions                         474           455              929
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                             0             5                5
10           Total number of simple inquiries received                                              74            83              157
11           Total number of simple inquiries resolved                                              62            77              139
12           Number of complex issues received                                                       5            31               36
13A          Number of complex issues referred for further action                                    2             3                5
13B          Total dollar amount referred for further action                                        $0        $4,505           $4,505
14           Number of complex issues resolved                                                       0             6                6
15           Number of complex issues pending further action                                         4            12               16
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                  $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                           $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                           $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                           $0        $2,699           $2,699
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                       $0            $0               $0
17A –17D     Total savings attributable to the projects                                             $0        $2,699           $2,699
A P P E N D       I X       ~     D




                                      

                                 Oklahoma – State of Oklahoma Department of Insurance, Oklahoma City
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  345             1              346
2            Total number of volunteer training hours                                             0             0                0
3            Total number of volunteer work hours                                                 0             3                3
4            Number of media outreach events                                                     43         1,362            1,405
5            Number of community outreach education events conducted                             22            17               39
6            Estimated number of people reached by community education events                 7,353         2,106            9,459
7            Number of group education sessions for beneficiaries                                13             2               15
8            Number of beneficiaries who attended group education sessions                      518            76              594
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          4             0                4
10           Total number of simple inquiries received                                           10            33               43
11           Total number of simple inquiries resolved                                            8            32               40
12           Number of complex issues received                                                    3             4                7
13A          Number of complex issues referred for further action                                 2             2                4
13B          Total dollar amount referred for further action                                     $0       $12,055          $12,055
14           Number of complex issues resolved                                                    1             2                3
15           Number of complex issues pending further action                                      2             2                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0       $11,422          $11,422
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0          $182             $182
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0          $182             $182
A P P E N D       I X       ~     D




                                      

                                      Oregon – Department of Human Services State Unit on Aging, Salem
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  170           145              315
2            Total number of volunteer training hours                                         1,190           616            1,806
3            Total number of volunteer work hours                                             4,080         1,858            5,938
4            Number of media outreach events                                                     55            70              125
5            Number of community outreach education events conducted                             79           127              206
6            Estimated number of people reached by community education events                 2,316        13,904           16,220
7            Number of group education sessions for beneficiaries                                11           102              113
8            Number of beneficiaries who attended group education sessions                      130         2,992            3,122
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                      4,240         3,961            8,201
10           Total number of simple inquiries received                                          858             7              865
11           Total number of simple inquiries resolved                                          858             7              865
12           Number of complex issues received                                                    7             2                9
13A          Number of complex issues referred for further action                                 5             2                7
13B          Total dollar amount referred for further action                                     $0        $1,242           $1,242
14           Number of complex issues resolved                                                    0             1                1
15           Number of complex issues pending further action                                      0             1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0          $125             $125
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0          $125             $125
A P P E N D       I X       ~     D




                                      

                    Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   64            48              112
2            Total number of volunteer training hours                                            81           111              192
3            Total number of volunteer work hours                                               250           640              890
4            Number of media outreach events                                                      5             7               12
5            Number of community outreach education events conducted                             23            41               64
6            Estimated number of people reached by community education events                 1,925         4,793            6,718
7            Number of group education sessions for beneficiaries                                30            99              129
8            Number of beneficiaries who attended group education sessions                      771         3,238            4,009
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        225           244              469
10           Total number of simple inquiries received                                            0             5                5
11           Total number of simple inquiries resolved                                            0             5                5
12           Number of complex issues received                                                    6             6               12
13A          Number of complex issues referred for further action                                 1             1                2
13B          Total dollar amount referred for further action                                   $125       $10,949          $11,074
14           Number of complex issues resolved                                                    3             3                6
15           Number of complex issues pending further action                                      2             1                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                      Puerto Rico – Office of the Ombudsman for the Elderly, San Juan
In operation since: July 1999                                                            Jan. – June    July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   12             12               24
2            Total number of volunteer training hours                                         5,760            132            5,892
3            Total number of volunteer work hours                                            12,960            216           13,176
4            Number of media outreach events                                                      6              1                7
5            Number of community outreach education events conducted                             97             74              171
6            Estimated number of people reached by community education events                10,593          9,051           19,644
7            Number of group education sessions for beneficiaries                                45             11               56
8            Number of beneficiaries who attended group education sessions                      937            257            1,194
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0              3                3
10           Total number of simple inquiries received                                            0            237              237
11           Total number of simple inquiries resolved                                            0            231              231
12           Number of complex issues received                                                    6              3                9
13A          Number of complex issues referred for further action                                 6              2                8
13B          Total dollar amount referred for further action                                     $0           $315             $315
14           Number of complex issues resolved                                                    3              1                4
15           Number of complex issues pending further action                                      3              1                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $67             $0              $67
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $67             $0              $67
A P P E N D       I X       ~     D




                                      

                                             Rhode Island – Department of Elderly Affairs, Cranston
In operation since: July 2006                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   58           114              172
2            Total number of volunteer training hours                                            54         1,304            1,358
3            Total number of volunteer work hours                                             8,524           817            9,341
4            Number of media outreach events                                                     12             8               20
5            Number of community outreach education events conducted                             50            46               96
6            Estimated number of people reached by community education events                 2,040        58,123           60,163
7            Number of group education sessions for beneficiaries                                26            23               49
8            Number of beneficiaries who attended group education sessions                      910           740            1,650
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                      2,380           197            2,577
10           Total number of simple inquiries received                                        3,206           811            4,017
11           Total number of simple inquiries resolved                                        2,725           640            3,365
12           Number of complex issues received                                                   53             4               57
13A          Number of complex issues referred for further action                                 6             3                9
13B          Total dollar amount referred for further action                                     NA           $40              $40
14           Number of complex issues resolved                                                   32             4               36
15           Number of complex issues pending further action                                     15             0               15
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               NA            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        NA            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        NA            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        NA            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    NA            $0               $0
17A –17D     Total savings attributable to the projects                                          NA            $0               $0
A P P E N D       I X       ~     D




                                      

                                           South Carolina – Lt. Governor’s Office on Aging, Columbia
In operation since: July 2000                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   48            20               68
2            Total number of volunteer training hours                                           175             0              175
3            Total number of volunteer work hours                                               402           768            1,170
4            Number of media outreach events                                                     44            25               69
5            Number of community outreach education events conducted                            167            45              212
6            Estimated number of people reached by community education events                23,360         8,808           32,168
7            Number of group education sessions for beneficiaries                               167            60              227
8            Number of beneficiaries who attended group education sessions                    1,192         2,431            3,623
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        731           644            1,375
10           Total number of simple inquiries received                                            0           200              200
11           Total number of simple inquiries resolved                                            0           200              200
12           Number of complex issues received                                                   22            73               95
13A          Number of complex issues referred for further action                                22             4               26
13B          Total dollar amount referred for further action                                     $0       $35,250          $35,250
14           Number of complex issues resolved                                                   12            32               44
15           Number of complex issues pending further action                                     10            29               39
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0        $4,400           $4,400
17A –17D     Total savings attributable to the projects                                          $0        $4,400           $4,400
A P P E N D       I X       ~     D




                                      

                                      South Dakota – East River Legal Services Corporation, Sioux Falls
In operation since: July 2000                                                            Jan. – June      July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   85              108              193
2            Total number of volunteer training hours                                             0            2,046            2,046
3            Total number of volunteer work hours                                             7,950            2,859           10,809
4            Number of media outreach events                                                      4                4                8
5            Number of community outreach education events conducted                              9                6               15
6            Estimated number of people reached by community education events                   651              652            1,303
7            Number of group education sessions for beneficiaries                                 5                6               11
8            Number of beneficiaries who attended group education sessions                      163              389              552
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0                0                0
10           Total number of simple inquiries received                                          137              196              333
11           Total number of simple inquiries resolved                                          137              196              333
12           Number of complex issues received                                                    6                4               10
13A          Number of complex issues referred for further action                                 4                0                4
13B          Total dollar amount referred for further action                                     $0               $0               $0
14           Number of complex issues resolved                                                    3                0                3
15           Number of complex issues pending further action                                      3                0                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0               $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0               $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0               $0               $0
17A –17D     Total savings attributable to the projects                                          $0               $0               $0
A P P E N D       I X       ~     D




                                      

                                      Tennessee – Upper Cumberland Development District, Cookeville
In operation since: July 2001                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   14            30               44
2            Total number of volunteer training hours                                            29           160              189
3            Total number of volunteer work hours                                               157           404              561
4            Number of media outreach events                                                     16            18               34
5            Number of community outreach education events conducted                            123           146              269
6            Estimated number of people reached by community education events                60,866        14,139           75,005
7            Number of group education sessions for beneficiaries                                48            72              120
8            Number of beneficiaries who attended group education sessions                    1,527         1,560            3,087
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        227            79              306
10           Total number of simple inquiries received                                          336           193              529
11           Total number of simple inquiries resolved                                          332           188              520
12           Number of complex issues received                                                   19             9               28
13A          Number of complex issues referred for further action                                 7             1                8
13B          Total dollar amount referred for further action                                $85,219          $465          $85,684
14           Number of complex issues resolved                                                   16             5               21
15           Number of complex issues pending further action                                     10             5               15
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other          $22,395            $0          $22,395
17A          Actual Medicare funds recovered attributable to the projects                   $62,338            $0          $62,338
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $280            $0             $280
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                     $62,618            $0          $62,618
A P P E N D       I X       ~     D




                                      

                                       Texas – Better Business Bureau Education Foundation, Houston
In operation since: July 2002                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   47             5               52
2            Total number of volunteer training hours                                             0             0                0
3            Total number of volunteer work hours                                                30            15               45
4            Number of media outreach events                                                      2            12               14
5            Number of community outreach education events conducted                             13            17               30
6            Estimated number of people reached by community education events                 1,651         3,002            4,653
7            Number of group education sessions for beneficiaries                                31            38               69
8            Number of beneficiaries who attended group education sessions                    1,206         1,979            3,185
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         20             5               25
10           Total number of simple inquiries received                                           81            93              174
11           Total number of simple inquiries resolved                                           79            93              172
12           Number of complex issues received                                                   38            70              108
13A          Number of complex issues referred for further action                                21            47               68
13B          Total dollar amount referred for further action                                $25,171       $12,074          $37,246
14           Number of complex issues resolved                                                    8            48               56
15           Number of complex issues pending further action                                     15            18               33
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                      Texas – The National Hispanic Council on Aging, Washington, DC
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  160           179              339
2            Total number of volunteer training hours                                           818       126,910          127,728
3            Total number of volunteer work hours                                            16,723         1,390           18,113
4            Number of media outreach events                                                     25            28               53
5            Number of community outreach education events conducted                            200           189              389
6            Estimated number of people reached by community education events                 9,720         9,475           19,195
7            Number of group education sessions for beneficiaries                               166           237              403
8            Number of beneficiaries who attended group education sessions                    7,400         8,047           15,447
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                      4,352         6,131           10,483
10           Total number of simple inquiries received                                       10,602        11,239           21,841
11           Total number of simple inquiries resolved                                        9,011        10,002           19,013
12           Number of complex issues received                                                 2176           815            2,991
13A          Number of complex issues referred for further action                              1841           239            2,080
13B          Total dollar amount referred for further action                               $154,027       $46,682         $200,709
14           Number of complex issues resolved                                                  335           576              911
15           Number of complex issues pending further action                                  1,841           239            2,080
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $63            $0              $63
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0          $225             $225
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                $7,009            $0           $7,009
17A –17D     Total savings attributable to the projects                                      $7,072          $225           $7,297
A P P E N D       I X       ~     D




                                      

                                                   Utah – Utah Legal Services, Inc., Salt Lake City
In operation since: July 1999                                                              Jan. – June    July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                    102            158              260
2            Total number of volunteer training hours                                              NA            270              270
3            Total number of volunteer work hours                                                  10          1,218            1,228
4            Number of media outreach events                                                        9             14               23
5            Number of community outreach education events conducted                            1,446             44            1,490
6            Estimated number of people reached by community education events                   4,120          7,999           12,119
7            Number of group education sessions for beneficiaries                                  55             45              100
8            Number of beneficiaries who attended group education sessions                      3,500            976            4,476
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        1,365             23            1,388
10           Total number of simple inquiries received                                             NA             35               35
11           Total number of simple inquiries resolved                                             NA             32               32
12           Number of complex issues received                                                     31             18               49
13A          Number of complex issues referred for further action                                  20              5               25
13B          Total dollar amount referred for further action                                       $0         $6,627           $6,627
14           Number of complex issues resolved                                                     11             11               22
15           Number of complex issues pending further action                                          6            7               13
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                 $0         $2,889           $2,889
17A          Actual Medicare funds recovered attributable to the projects                      $3,358             $0           $3,358
17B          Actual Medicaid funds recovered attributable to the projects                          $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                          $0         $3,570           $3,570
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                      $0             $0               $0
17A –17D     Total savings attributable to the projects                                        $3,358         $3,570           $6,928
A P P E N D       I X       ~     D




                                      

                                              Vermont – Community of Vermont Elders, Montpelier
In operation since: July 2003                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   12            12               24
2            Total number of volunteer training hours                                           114            44              158
3            Total number of volunteer work hours                                               371           131              502
4            Number of media outreach events                                                      0            31               31
5            Number of community outreach education events conducted                              6             5               11
6            Estimated number of people reached by community education events                   199           246              445
7            Number of group education sessions for beneficiaries                                17            11               28
8            Number of beneficiaries who attended group education sessions                      305           291              596
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        357             0              357
10           Total number of simple inquiries received                                           11             2               13
11           Total number of simple inquiries resolved                                            3             0                3
12           Number of complex issues received                                                   10            13               23
13A          Number of complex issues referred for further action                                 3             6                9
13B          Total dollar amount referred for further action                                 $1,079            $0           $1,079
14           Number of complex issues resolved                                                    3             9               12
15           Number of complex issues pending further action                                      6             4               10
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0           $84              $84
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0           $84              $84
A P P E N D       I X       ~     D




                                       

                                      Virginia – Virginia Association of Area Agencies on Aging, Richmond
In operation since: July 1999                                                            Jan. – June    July – Dec.   Total for 2007
                                           OUTPUT MEASURES
1            Total number of active volunteers                                                   79             36              115
2            Total number of volunteer training hours                                            58              0               58
3            Total number of volunteer work hours                                               552            108              660
4            Number of media outreach events                                                  3,374            258            3,632
5            Number of community outreach education events conducted                            189             52              241
6            Estimated number of people reached by community education events                 8,823          4,850           13,673
7            Number of group education sessions for beneficiaries                                56             80              136
8            Number of beneficiaries who attended group education sessions                      508          2,470            2,978
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        349             23              372
10           Total number of simple inquiries received                                           94             60              154
11           Total number of simple inquiries resolved                                           93             60              153
12           Number of complex issues received                                                   14             11               25
13A          Number of complex issues referred for further action                                13              1               14
13B          Total dollar amount referred for further action                                     $0             $0               $0
14           Number of complex issues resolved                                                    9              1               10
15           Number of complex issues pending further action                                      3              4                7
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0             $0               $0
17A –17D     Total savings attributable to the projects                                          $0             $0               $0
A P P E N D       I X       ~     D




                                      

                            Virgin Islands – Department of Human Services, Senior Citizens Affairs, St. Croix
In operation since: July 2005                                                            Jan. – June   July – Dec.    Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   10              46              56
2            Total number of volunteer training hours                                             8             20               28
3            Total number of volunteer work hours                                                20              94             114
4            Number of media outreach events                                                     76             125             201
5            Number of community outreach education events conducted                              2              20              22
6            Estimated number of people reached by community education events                   500         1,500             2,000
7            Number of group education sessions for beneficiaries                                17              20              37
8            Number of beneficiaries who attended group education sessions                      160             525             685
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         20              25              45
10           Total number of simple inquiries received                                            0               2               2
11           Total number of simple inquiries resolved                                            0               2               2
12           Number of complex issues received                                                    0              0                0
13A          Number of complex issues referred for further action                                 0              0                0
13B          Total dollar amount referred for further action                                     $0              $0              $0
14           Number of complex issues resolved                                                    0              0                0
15           Number of complex issues pending further action                                      0              0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0              $0              $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0              $0              $0
17C          Actual savings to beneficiaries attributable to the projects                        $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0              $0              $0
17A –17D     Total savings attributable to the projects                                          $0              $0              $0
A P P E N D       I X       ~     D




                                      

                                           Washington – Office of the Insurance Counselor, Olympia
In operation since: July 1999                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  373           284              657
2            Total number of volunteer training hours                                         3,380         2,641            6,021
3            Total number of volunteer work hours                                            25,974        27,803           53,777
4            Number of media outreach events                                                    106           126              232
5            Number of community outreach education events conducted                            205           131              336
6            Estimated number of people reached by community education events                22,857         4,810           27,667
7            Number of group education sessions for beneficiaries                                58            49              107
8            Number of beneficiaries who attended group education sessions                       NA           859              859
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     10,470        10,316            20,786
10           Total number of simple inquiries received                                        1,783         1,994            3,777
11           Total number of simple inquiries resolved                                        1,783         1,994            3,777
12           Number of complex issues received                                                8,624           237            8,861
13A          Number of complex issues referred for further action                               225           237              462
13B          Total dollar amount referred for further action                                     NA            NA               NA
14           Number of complex issues resolved                                                  225           237              462
15           Number of complex issues pending further action                                      0             0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               NA            NA               NA
17A          Actual Medicare funds recovered attributable to the projects                        NA            NA               NA
17B          Actual Medicaid funds recovered attributable to the projects                        NA            NA               NA
17C          Actual savings to beneficiaries attributable to the projects                        NA            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    NA            NA               NA
17A –17D     Total savings attributable to the projects                                          NA            $0               $0
A P P E N D       I X       ~     D




                                      

                                                   West Virginia – AARP Foundation, Charleston
In operation since: July 2003                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   64            65              129
2            Total number of volunteer training hours                                            65            42              107
3            Total number of volunteer work hours                                               789           677            1,466
4            Number of media outreach events                                                     96         1,271            1,367
5            Number of community outreach education events conducted                             37            25               62
6            Estimated number of people reached by community education events                 9,042        16,741           25,783
7            Number of group education sessions for beneficiaries                                18            22               40
8            Number of beneficiaries who attended group education sessions                      875         1,173            2,048
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         40           101              141
10           Total number of simple inquiries received                                          108            83              191
11           Total number of simple inquiries resolved                                          108            83              191
12           Number of complex issues received                                                   28           132              160
13A          Number of complex issues referred for further action                                11            45               56
13B          Total dollar amount referred for further action                                     $0       $33,223          $33,223
14           Number of complex issues resolved                                                    1             6                7
15           Number of complex issues pending further action                                     10            12               22
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                          Wisconsin – Coalition of Wisconsin Aging Groups, Madison
In operation since: July 1997                                                            Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   25            34               59
2            Total number of volunteer training hours                                           380            40              420
3            Total number of volunteer work hours                                             4,411           380            4,791
4            Number of media outreach events                                                    101            25              126
5            Number of community outreach education events conducted                             39            50               89
6            Estimated number of people reached by community education events                 2,149         5,603            7,752
7            Number of group education sessions for beneficiaries                                44            20               64
8            Number of beneficiaries who attended group education sessions                    1,154           574            1,728
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         13            16               29
10           Total number of simple inquiries received                                          104           198              302
11           Total number of simple inquiries resolved                                           93           189              282
12           Number of complex issues received                                                    1             8                9
13A          Number of complex issues referred for further action                                 0             6                6
13B          Total dollar amount referred for further action                                     $0          $209             $209
14           Number of complex issues resolved                                                    0             2                2
15           Number of complex issues pending further action                                      0             6                6
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other               $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0            $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0            $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0            $0               $0
17A –17D     Total savings attributable to the projects                                          $0            $0               $0
A P P E N D       I X       ~     D




                                      

                                                      Wyoming – Senior Citizens, Inc., Riverton
In operation since: July 2000                                                             Jan. – June   July – Dec.   Total for 2007
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                     94           77              171
2            Total number of volunteer training hours                                             368        2,904            3,272
3            Total number of volunteer work hours                                                 467       79,314           79,781
4            Number of media outreach events                                                        3          550              553
5            Number of community outreach education events conducted                               12           20               32
6            Estimated number of people reached by community education events                     237          250              487
7            Number of group education sessions for beneficiaries                                   0           37               37
8            Number of beneficiaries who attended group education sessions                          0        1,038            1,038
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          907        2,609            3,516
10           Total number of simple inquiries received                                             14           25               39
11           Total number of simple inquiries resolved                                             14           25               39
12           Number of complex issues received                                                     0             0                0
13A          Number of complex issues referred for further action                                  0             0                0
13B          Total dollar amount referred for further action                                       $0           $0               $0
14           Number of complex issues resolved                                                     0             0                0
15           Number of complex issues pending further action                                       0             0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiary, or other                $0            $0               $0
17A          Actual Medicare funds recovered attributable to the projects                          $0           $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                          $0           $0               $0
17C          Actual savings to beneficiaries attributable to the projects                         $0            $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                      $0           $0               $0
17A –17D     Total savings attributable to the projects                                            $0           $0               $0
   Δ       A P P E N D I X               ~     E




                                       Performance Measures Definitions


The following list includes the definitions of the performance measures for 2007.




                                                                                    89
A P P E N D   I X    ~   E




                                          Definitions


ACTIVE VOLUNTEERS	           Individuals who donate their time or resources and are trained to assist
                             with implementing the project.

MEDIA OUTREACH	              Any individual airing or publishing of media (e.g., print,
EVENTS	                      radio, television, or electronic) to educate about Medicare/Medicaid fraud
                             and the services of the project.


COMMUNITY OUTREACH	          Any education activity conducted by project staff or
EDUCATION EVENT	             volunteers that is not a group education session, one-on-one session, or
                             media outreach activity.


GROUP EDUCATION 	            Formal gatherings led by project staff or volunteers to
SESSIONS	                    educate recipients, family members, caregivers, and others on detecting
                             fraud, waste, and abuse in the health care system and services offered by
                             the project.

ONE-ON-ONE COUNSELING	       A meeting between project staff or volunteers and an
SESSIONS 	                   individual beneficiary and/or his or her family for the purpose of
                             discussing or gathering information about potential health care fraud,
                             waste, or abuse. One-on-one counseling sessions may include beneficiary
                             counseling, information gathering, or information sharing.


SIMPLE INQUIRIES 	           A simple inquiry is brief contact initiated by a consumer and/or
                             beneficiary that is resolved with minimal time and research or review.
                             Simple inquiries typically do not require individual demographic or
                             private personal information such as a Medicare number or information
                             about a medical condition.

COMPLEX ISSUES 	             Complex issues are inquiries that generally require the project staff or
                             volunteer to obtain beneficiary personal identifying information and
                             detailed information related to the issue, complaint, or allegation in order
                             to conduct further investigation or referral.



                                                                                                            90
 A P P E N D     I X   ~   E      





COMPLEX ISSUES                 Complex issues referred to a Medicare contractor,
REFERRED FOR FURTHER           an investigative agency, or other appropriate organization.
ACTION

COMPLEX ISSUES                 A complex issue successfully closed by a project, a
RESOLVED                       Medicare contractor, an investigative agency, or another appropriate
                               organization.

COMPLEX ISSUES PENDING         All complex issues – irrespective of when they were
FURTHER ACTION                 received – that remain unresolved.


COST AVOIDANCE	                Health care expenditures for which the Medicare program, the Medicaid
                               program, a beneficiary, or other entity (e.g., secondary health insurer,
                               pharmacy) was relieved of responsibility for payment as a result of the
                               projects.

MEDICARE FUNDS 	               Money saved or recouped to the Medicare Trust Fund as a
RECOVERED	                     result of the projects. This applies to money recouped through a Medicare
                               contractor, a law enforcement agency, or directly to Medicare at the
                               provider level.

MEDICAID FUNDS	                Money saved or recouped to Medicaid as a result of the
RECOVERED	                     projects. This applies to money recouped through a Medicaid Fraud
                               Control Unit, a law enforcement agency, or directly to Medicaid at the
                               provider level.

SAVINGS TO THE 	               Money saved or recouped to an individual as a result of the
BENEFICIARY	                   projects (e.g., copayments, deductibles, or any other out-of-pocket
                               expenses).

OTHER SAVINGS	                 Money saved or recouped to an entity other than the Medicare program,
                               the Medicaid program, or beneficiaries (e.g., secondary health insurance,
                               pharmacy) as a result of the projects.




                                                                                                           91
